RECORD:

Doc. 29, Pet.

HE

('

f

AUTHORIZATION TO REPRESENT
The undersigned hereby authorize Kern Law, Ltd., its employees and agents, including
but not limited to Robert Kem, Esq., to represent the unclersignei inall matterJrelaied to the
issues listed below.

Any information that may be deemed privileged may be disclosed to Kern Law, Ltd. in
the course of Kern Law's reprcs€ntation on the undersigned''s behalf. Kern Law,s
contact
information is:2421 Tech Center Ct., Suite 104, Las Vegas, Nevada 89128; Telephone (702)
5 I 8'4529 ; Facsimi le (7 02) 825 -s872 ; Emai r Robert@Kernt.awoffi
ces.com,
Client Name: the Harkey Operating Trust, as successor by transfer from Michael E.
ofall algrney^jfe-er puia prior to the registraiion
ofrrting
Trust with rhe secretary of state for the State-of Minnesotain May 2, 2016,
Harkey, of refunds

ortnrHffi

S^cope of Representation: Representation of the Harkey Operating Trust in
the recovery
of up to $45,000.00 in attomey's fees paid to Dubin Law Offices of Hawaii and Califomia for
services to be rendered on behalfof Michael E. Ha*ey: $20,000.00 paid in December,
2015 or
January, 20t6 for representation of Michael E. Harkey in Adv. wo. ti-Ot3S5 in rhe
United
States Bankruptcy Court for the Westem District of Washington and $25,000.00 acknowledged
to have been received by Attorney Cary Dubin on April t, {llOfor representation of Mictrait g,
Harkey_in Harkey v, U..S. Bank, N.A. as Truste e
.for the CSMC Mortgige-Backed Trust 2007-6,
ct al., CaseNo. 2 : I 4-cv-001 77.RFB-GWF.

^

TMACED COPIES OF THE SIGNATURES BELOW
SHALL HAVE THE SAME FORCE AND EFFECT AS THE ORIGINALS

%(c Client Signature:
Date:

?g

20/{
Client Signature:

RECORD

z

1.1,

/ 28 /17

TranscriPt

DhF *to
DISCIF!"iNIARY BOAR,D
CIF TI.IF
HAWAII SUPRf;^AE COURT

Before the

1

DISC]PLINARY

2

Rffi0ffiil\/Em

BOARD

7o

of the

3

HAWAI'T SUPREME

4

DAY

COURT
TIME

M

ovt-,n't
MONTH

$to P rrl

sy

btr

OFFICE OF DTSC]PLINARY

1

COUNSEL,

No. 76-0-213
16-0-151

Petitioner,

a

16-0-r4'7

)

I6-0-326

vs.

9

10

oDC

GARY

V.

DUBIN,

ResPondent.

11

I2
13

I4

(VolumeIII)

HEARING

15

Counsel, 20I Merchant

t6

Taken at the Office of Disciplinary

1,7

Street, Suite 1500, Honolulu, Hawaii 96813, commencing

1B

9:09

d . tTt. r

on November

20

,

20L1

at.

-

1,9

20
21,

22

23

BEFORE:

HEARING OFF]CER ROY HUGHES, ESQ.

24

25

Reported by:

Mary Anne Young, CSR 369,

t-l

YEAR

,.lt"l

5
5

,-a

RPR

413

1

For the Office of Disciplinary

Counsel-:

B. KfM, ESQ.

2

BRUCE

3

Chief Disciplinary Counsel

4

Office of Disciplinary Counsel

5

201 Merchant Street

6

Suite

7

Honolulu, Hawaii

1600
96813

8
9

For the Respondent:
D. WAIHEE, III,

10

JOHN

11

Dubin Law Offices

t2

55 Merchant Street

13

Suite

1.4

Honolulu, Hawaii

ESQ

3100
96813

15

I6
1,7

18

t9
20

2I
22
23
24
25
41,4

INDEX

1

2
3
4

EXAMINATTON BY:

PAGE

WITNESS:

5

GEORGE ELERICK

6
1

Mr.

I

Mr. Dubin

425

Kim

440

9

WITNESS:

t_0

ANDREW GOFF

11

L2

Mr

Kim

483,519

13

Mr

Dubin

500,524

L4

WTTNESS:

15

R]CHARD FORRESTER

L6
T7

Mr.

18

Mr. Dubin

534,587

Kim

583,589

I9
20

WTTNESS:

2L

ROBERT ANDTA

22
23

Mr. Kim

592

24

25
41,5

HEARING OFFTCER HUGHES:

1

2

clarification.
MR. KIM: Thank you.

3
4

Okay, George, you can

take a break.
HEARING OFFICER HUGHES:

5
6

Thank you for the

We'll- be in recess

for ten minutes
(A short break was taken)

'7

B

HEARING OFFICER HUGHES:

9

MR. DUBIN: Yes.

Are you ready?

10
CROSS-EXAM]NATTON

11

t2

BY MR. DUB]N:

13

0

Mr. Elerick, may I call- You George?

t4

A

Pl-ease.

15

O

You testified

I6

that your role at the

ODC was

terminated November 2016?

I7

A

That's correct.

1B

O

Duringr this -- how many years did you say you

L9

had been with the

ODC?

20

A

ApproximatelY eight Years

2L

O

Eight Years.
During that time, did you recej-ve

22
23

-

many

complaints about foreclosure defense lawyers?

24

A

I'm sorrY?

z5

O

Duri-ng that period of time you were with the
440

1

ODC __

A

2
3
4

Yeah.

-- did you receive -- do you recal-l receivj-ng
many complaints about foreclosure defense attorneys?
O

5

MR. KfM: BeYond the scope of direct.

6

THE WITNESS: Yes.

1

BY MR. DUBIN:

O

8

You did?

In your experience, was that amount more than

9
t_0

what you received from -- regarding other attorneys

11

may

who

not have been practicing in foreclosure defense?
MR. KIM: I'm going to object.

L2

The questJ-on

13

cal-1s for him to assume facts that are not in evidence

L4

and specufate.
HEARING OFFICER HUGHES:

15

I6

He's only asking

about the witness' experience, as f understand.
THE WITNESS:

t1

part.

Yeah, it woul-d be speculation

I handled a number of complaints from -- about

1B

my

L9

a number of attorneys within the state of Hawaii.

20

BY MR. DUBTN:

2I

O

on

Do you recall that there were complaints,

22

other than the one you're being asked to testify

23

regarding

about

me?

24

A

Yes there is.

25

O

Yes. And on those complaints, did I fully
44L

1

cooperate with

You?

MR. KIM: I'm qoing to object to t.his l-ine of

2

Mr. Elerick, nor is any other employee of

3

questioning.

4

the Office of Disciplinary

5

upon existing or past investigations because, by supreme

6
7

Court rule, those investigations are stri-ctly
confidential, so I'm going to object to t'his and ask,

B

you know, that

9

testify

10
11
12
13

Counsel allowed to

comment

for a ruling that he not. be al-l-owed to

with respect to other complaints. He's only

here to t.esti-fy about the complalnts that he
investigated with respect to the Kern matter, and,
again, any other complaints are strictly confidential by
Supreme court rule and George can't talk about them.
HEARING OFFICER HUGHES:

t4

Okay. With that in

with respect to the Kern

15

mind, I want to know if,

L6
71

complaints, Mr. Dubin cooperated wj-th you.
THE WTTNESS: fn most of the past cases,

18

The one

19

HEARING OFFICER HUGHES:

20

MR. DUBIN: Your Honor?

2I

THE WITNESS:

22

looking

Yes.

Just the Kern case.

Just the current ones we're

at.?

23

MR. KTM: Kern.

24

HEARING OFFICER HUGHES: Kern-

25

MR. KfM: Kern.
442

HEARING OFFICER HUGHES:

1

2

did Mr. Dubin cooPerate with
THE WITNESS:

3

In the Kern maLLer,

You?

No. As a matter of fact, the

4

one we had just studied here regardj-ng Mr. Kern, f never

5

did receive a final- explanation regarding what I

6

asked for in a Previous letter.
HEARING OFFfCER HUGHES:

1
a

9

l_0

had

Okay. So we're just

doing to confine oursel-ves to the Kern action.
MR. DUBIN: I have been accused of not
cooperating.

T have a right to ask this witness whether

1,2

in the past I cooperated. I have not asked thi-s witness
for any detai1s regarding any other complaint in the

13

history of the world.

t_1

I

am

trying to establish that

15

pattern has always been to cooperate with this
particular witness who is testifying today. T have

1,6

absolute right to establish that.

74

HEARING OFFICER HUGHES:

I1

my

an

WeI1, I understand

counsel that there is -- we1l, with respect to

1B

from

19

any matter pending in the ODC, cooperation, I believe,

20

according to counsel is protected.

2L

what the cooperation level from Mr. Dubin was with

22

respect to the Kern matter.

23

concerned with here, not whether there was cooperation

24

i-n other matters.

25

ODC

I wanted to

know

That's what we are

MR. DUBIN: My pattern of fully

cooperating
443

1

2

with George on past matters is refevant to the issue
whether I cooperated because he left before I was fully

4

cooperating, and, in addition to that, f asked for the
people who handled my -- the complaint by Mr. Kern after

5

him to be available to testify,

3

6
1
B

9

10
t-1

L2

and there was an in

l-imine motion that. I could not cal-I them'
So t.he ODC can call whoever they want to callfrom the oDC and ilm not all-owed to cal-l- other people
from the ODC and I'm not al-lowed to establish apparently

the fact that I have always cooperated with Georqe.
how can that. not be relevant?
HEARING OFFICER HUGHES: Well, we are here

And

on

I4

a specific claim, the Kern claj-m, not on past -- other
past claims, and werre not going to be hearing evldence

15

on other past cl-aims.

13

L6

MR. DUBIN: I have not asked --

L1

HEARING OFFICER HUGHES:

and irrelevant,

That woul-d

be

so we are going to confine

1B

prejudicial

t9
20

ourselves to the Kern matter, and if you have other
witnesses or you made these efforts, Mr' Dubin' f am

2T

willing to hear al-l- of that evidence, okay, with respect

22
ZJ

24
25

to the Kern matter onIY.
MR. DUBIN: I have been restricted.

Your in

limine my motion -- the in limine motions were granted
that I cannot cal-l t.he people who were handling the
444

1

matLer after George leftr

so how can you concl-ude that I

3

didn't cooperate when f rm restricted from calling
people that took over after he left?

4

HEARING OFFTCER HUGHES: You

2

5

MR. DUBIN: Theref s an in l-imine order that I

cannot by your -- bY You.
HEARING OFFICER HUGHES:

B

9

10
11

L2
13
74
15

I6
1-7

1B

can calf those

people

6
1

t.hose

Mr. Kim, what was the

basis for that i-n limlne motion?
MR. KIM: Again, theY canrt comment

on

existing or past invest.igations lnvolving the Respondent
or anyone by Supreme Court rul-e; and number two, the
only evidence with respect to the Kern matter is set
forth in paragraphs B0 through 82 j-n Lerms of the
fail-ure t.o cooperate. There is no other evidence.
These are the only communications that ODC received from
Mr. Dubin, and the essential heart of the Kern complaint
is that Mr. Dubin failed to accounL for his -- to his

)n

client for retainers that were paid to Mr. Dubin's
office in the sum of $45,000. That's the heart of the

2I

Kern complaint.

t9

23

Mr. Elerick asked Mr. Dubin to produce the
accounting that was requested by Mr. Kern, and Mr. Dubin

24

never dld.

25

produce the accountinq to ODC, okay, then he can put it

22

If Mr. Dubin has evidence that he did

445

1

on. That's the issue:

Did he cooperate with

3

Mr. Elerick or anyone el-se? If he wants to put that
evidence in, you know, Lo do it, but werre not going to

4

al_low attorneys -- former staff

z

5
6

attorneys and/or

investigators to be put on the stand to talk about what
might have happened in another case, ds yourve already

-t

pointed out, and they l-itera1ly cannot do that

x

Supreme

10
11

Court rufe.
HEARING OFFICER HUGHES:

9

by

I understand'

Mr. Dubin seems to be indicating to me today that he has
other persons assocj-ated wj-th the oDC investigation of

13

the Kern matter, which is at issue, that he believes
shou]d be testifying specific to the Kern malter,

1,4

correct

L2

?

15

MR. DUBIN: Correct.

I6

HEARING OFFICER HUGHES: And

1-1

1B

19
20
21-

And maYbe

so T want to

have

an offer of proof from you, Mr. Dubin -MR. DUBIN: OkaY.
-- on who those
witnesses are and what they are purporting to say. And
I would like to have that not verbally, I want to have
HEARING OFFICER HUGHES:

23

it in the form of an affidavit or decl-aration. rf you
could work on that ovdr the l-unch break, I woul-d

24

appreciate it.

22

25

MR. DUBIN: It would be impossibl-e to do that
445

1

2
3
4

during the l_unch break. Again, f 'm being prejudiced by
the piling up of work on my part and nothing is being
requested of the oDC counse.l-. what r want to do is I
want to go on with the cross-examination of Mr. Elerick,

6

which wil-l lay the foundation for some of the things
we're talking about, and I will- prepare that decfaration

7

as soon as possible.

5

8
Y

10
11
1,2

13

I'm a ful-l-time attorney with

cases, deadlines, et ceLera, and I can only do the best
f can in the time that I have, but I will certainly
prepare that as soon as I can.
HEARING OFFICER HUGHES:

WeIl, Mr. Dubin, this

is a very serious matter that is before you in this oDC
proceeding, and I strongly suggest that if you have a

15

witness or d.ocuments that contradict what ODC counsel
has said and what Mr. El-erick has testified to and what

t6

has been produced to date through Exhibit E-3, that you

I1

provide it to me at your earliest convenience '
MR. DUBIN: Yes, and my objection is that

I4

1B

ODC

20

can produce whoever they want to produce without an
affidavit and f have to go under the barbed wire,

2I

spending my time to try to show why I shoufd be abl-e to

L9

24

-- have somebody from the oDC produced when Mr. Kim can
freely question anybody he wants to put on for the oDC.
It's just. si_mply not f air. I ' d like to go on with my

25

questioning whlch wil_I 1ay the foundation for what I

22
23

441

1

will provi-de.
HEARING OFFICER HUGHES:

2
3

proceed.

4

BY MR. DUBTN:

Sublect to objection,

Mister -- I feel more comfortable calllng

5

O

6

George.

1

A

Yes.

a

O

Let me just say that in previous relations

9

wj-th you, George, I found you to be an outstanding

10

investigator for the ODC, fair,

1t_

and f thank you for that.

respectful and thorough,

Do you remember the day in November that you

I2
13

were no longer with the

T4

A

15

0

ODC?

Yes. It was -- my l-ast. day was November 30th.
November 30th. Now, is it. true you don't know

1,6

what happened regarding the Kern complaint after

L7

November 30th?

A

1B

I9
20
2T

came

No, no conLact to -- no, no other information

to me after that.
O

Are you aware of the facL -- oh, strike that.
When you were communicating

with me, were

22

al-so having discussions with Assistant Disclplinary

23

Counsel Ms. Shinamura?

24

25

you

you

MR. KIM: I'm goinq to object to t.hat on

attorney work product and the matters that were raised
448

1

in our motions in limine.
HEARING OFFICER HUGHES: You may

2
3

foundational- question.
MR. DUBIN: I have not asked for the content

4

5

of those discusslons.
HEARING OFFICER HUGHES:

6
7
8

ask this

I understand.

BY MR. DUBIN:

A

Was

Ms. Shlnamura --

HEARING OFFICER HUGHES: He

9

10

MR. DUBIN: OkaY.

11

THE WITNESS:

hasnrt answered.

I had one meeting with

t2

Ms. Shinamura regardi-ng this partj-cu1ar case.

13

BY MR. DUB]N:

t4

A

Was she

giving you questions to ask

MR. KIM: Objection.

l_5

me?

This is work product,

t6

and he's even within t.he scope of the attorney/client

t7

privilege.
HEARING OFFICER HUGHES:

1B
1,9

objection' you may answer.
THE WITNESS: Would

20
21,

exactly what

22

BY MR. DUBIN:

23
24
25

Understanding the

O

As you've testified

you repeat that please,

i-n your one discussion

with Ms. Shinamura, did she provide you with the
questions to ask me that were in the letter that

you
449

1

to --

testified

MR. KIM: Same ob jection

2
3

-

BY MR. DUB]N:

5

-- to me?
MR. KIM:

6

HEARING OFFICER HUGHES: You may answer.

1

THE WITNESS: OkaY.

B

HEARING OFFICER HUGHES:

O

4

9

T2

13

objections.

I'l-l- reserve on that

objection.
THE WITNESS: Yeah,

10
11

Same

remember

what

the best that I

can

I was in here on September the l-6th' I

believe it was, and I had a short meeting with
Ms. Shinamura regarding your particular cases that

were

t_5

It
before -- that was before the ODC, and that was it.
wasnrt very -- it wasn't thorough. It was just to say

16

these would be -- these cases woul-d be coming up before

I1

the

1B

BY MR. DUB]N:

1,4

t9

ODC.

Are you aware of the fact that a complaint

O

21"

complaint was submitted to a board member for
approval about the same time as f was asked to provide

22

response

20

23
24
25

the

Kern

a

?

MR. KIM: No foundation.

It just

assumes

facts not in evidence.
HEARING OFFICER HUGHES:

Sustained.
450

1

2

BY MR. DUB]N:

O

Do you have any persona.I knowledge as to when

3

the Kern matLer was submitted to a

4

for the filing

of a dlsciplinary

member

of the board

complaint?

5

A

I donrt have that information right

6

O

Can you l-ook at E-3?
HEARING OFFICER HUGHES:

1

9

10

now.

Before we proceed

further with this, E-3 is a compilation of documents, so
I want you to specifically refer to the
do you have
document you're about to ask the witness a question on

1,2

before we proceed t.o the question, just so f f m on the
same pa9e, and if there is an objection I have it in

13

front of

14

BY MR. DUB]N:

11

me.

15

O

Do you have E-3 in front of You?

I6

A

Yes, I do.

r'7

O

Did I respond to that complaint? Can you -HEARING OFFICER HUGHES: I'm. going to -- okay.

1B
1"9

You're referring to the l-etter of September B'
MR. DUBIN: Yes.

20

2I
22
23

201"6?

BY MR. DUBIN:

a

The question was whether I responded.
HEARING OFFICER HUGHES: We

have a question

24

pending. If you need to have it read back' we can have

25

it read back.
45r

MR. DUBIN: Okay. If the witness wants it

1

3

read back, I was just trying to be helpful '
HEARING OFFICER HUGHES: Then you're going to

4

reframe the question.

5

question posed.

2

We're going to just deal with the

1

After you're done looking at the materi-al,
Mr. Elerick, f wil-l- ask the reporter to reask the

B

guestion.

6

THE WITNESS:

9

HEARING OFFICER HUGHES: When

10

11
L2

Irm sorrY?
you're done, frm

going to have the reporter reask the question that
Mr. Dubin posed so you can answer it' okay?

13

THE WITNESS: OkaY.

L4

(The foll-owing question was read back:

Did I resPond to that comPlaint?)
HEARING OFFICER HUGHES: Did Mr. Dubin respond

15
1"6

71

to the comPlaint?
THE WITNESS:

18
T9

No, to my knowledge, it was not

responded to.

20

HEARING OFFICER HUGHES:

21"

MR. DUBIN: Thank You.

22

23
24

25

Okay. Thank you'

BY MR. DUBIN:

Georqe, I apoloQize, we have a lot of books
here and I was not informed that you were going to
t.estif y today, but I'd like to provide you wit'h part 1

O

452

1,

of the Respondent's hearing exhibits regardingt

2

Complainant Kern.

4

I'd l-ike to

witness.

HEARING OFFICER HUGHES:

5
6

Trd like to see what

you're showing the witness first.
MR. DUBIN: This is the book that everybody

1
o

f may approach the

And f'm going to -- if

3

has

.

MR. KIM:

9

MR. DUB]N:

10
11

number of exhibits.

L2

front of him.

What.

exhlbit?

Well-, f 'm going to ask hj-m a
I'm just going to put the book in

13

HEARTNG OFFICER HUGHES: Wel-l

74

MR. KIM: Just one.

15

HEAR]NG OFFICER HUGHES :

-- you're not going

I6

to put a book i-n front of him. I want to

L7

exhibit.

l_s

1B

MR. DUBIN: OkaY.

I9

HEARING OFFTCER HUGHES

20

2t
22

:

And I want to have it

precisely identified.
MR. DUBIN: OkaY. We're going to start out.

This is Exhibit 2 in the book Part

23

HEARING OFF]CER HUGHES

24

MR. DUBIN: I'm qoinq to.

25

know what the

identi-fication.

:

1.

Identify the exhibit.
This i-s part of the

I've got to give you the location.
453

1

This is a letter to Mr. George Elerick, Investigator,

3

sent -- the legend says sent by facsimil-e to
B0B-545-2719 dated September 23td, 20L6. It l-ooks like

4

about a dozen pages and f'd like to ask the witness if

5

he recal-1s having received this l-etter.

2

(Respondent's Exhibit 2

6

marked for identification.

1

HEARING OFFfCER HUGHES:

o
Y

f want to take a

MR. DUBIN: OkaY. And You do have

11

HEARING OFFICER HUGHES:

I understand.

MR. DUBIN: The complexity of flnding it.

.

MR. KIM: Can I get my vo.l-ume 1 of Kern?

L4

HEARING OFFICER HUGHES:

15

MR. KIM: OkaY.

76

HEARING OFFICER HUGHES: For

I7

Mr. Dubin i-s produci-ng a September

1B

directed to Mr. El-erick.
which vofume and which exhibit?

the record,

23, 20]-6 l-ett.er

we

are l-ooking at

This is vol-ume --

MR. DUBIN: This is called Part L, which is

21,

22

Volume

,1. -7

1.6-0-326.

25

Yes, please do.

Just. so we have everYthing'

1,9

24

l-ook

a

13

20

)

at it first.

10

I2

was

1

of Respondent's hearing exhibits regarding
HEARING OFFICER HUGHES: And

exhibit identified

this is

ODC

an

in your binder as 2, correct?
454

1

MR. DUBIN: CorrecL, Yes.

2

HEARING OFFICER HUGHES:

3

September 23, 2016 l-et.ter?

4

MR. DUBfN: Yes.

5

HEARING OFFICER HUGHES:

6

take a l-ook at that letter

1

ir.
THE WITNESS: OkaY.

9

HEARING OFFICER HUGHES:

that, gi-ve me the binder number

called Part It

MR. DUBIN: It's

t2

HEARfNG OFFICER HUGHES:

Are you

15

THE WITNESS:

1,6

HEARING OFFICER HUGHES:

16-0-326.

Let me know when

done?

I reallY didn't
Are you done reading

ir?
I'm done reading it.

1B

THE WITNESS:

t9

HEARING OFFICER HUGHES:

20

ODC

you're done, Mr. E1erick.

1-4

L7

While he's doing

agaJ-n.

11

13

Mr. Elerj-ck, please

and then we will- tal-k about

B

10

And it is the

Okay. I'm going to

ask a few guestions before the exhibit is received.

First of all-, Mr. Elerick'

2T

you have read and

22

reviewed what Mr. Dubln provided to you, which is

23

September 23, 201'6 facsiml1e letter

24

correct

25

a

directed to you,

?

THE WITNESS: Yes.
455

pages

of material-

3

THE WITNESS:

I'm sorry.

4

HEAR]NG OFFICER HUGHES:

2

5

And it

HEARING OFFICER HUGHES:

1

approximately 12

contains

?

say

ftts

that again.
about. 12 pages

worth of material?

6

THE WITNESS: Yeah.

7

HEARING OFFICER HUGHES:

a

THE WITNESS: OkaY.

9

HEARING OFFICER HUGHES:

Approximately?

Having reviewed

10

Exhibit 2 Lhat has been provided to you by Mr. Dubin,

11

you have a recoll-ection of having received that?
THE WITNESS:

1,2

13

16

f don't

remember

ir.
HEARING OFFICER HUGHE8+

14
15

No, I donrt.

Mr. Dubin?

BY MR. DUBTN:

O

You havenft stated that you don't recaff this
Does that change your testimony that f didntt

I1

letter.

1B

cooperate -- didn't. respond to your earl,ier 1etter?
MR. KIM: ComPound.

I9
20

do

BY MR. DUBIN:

2I

O

Is

22

A

Wetre

23

O

Yes.

my

question clear?
still

talking about Mr. Kern, right?

24

HEARING OFFICER HUGHES: Yes.

25

THE WITNESS: And

as far as I remember, I did
456

1,

2

not get the response from you. r don't remember this
part.icular item right here. f don't remember getting,

3

you know, 20

4

that is in here.

some pages

of deposits and whatever

f don't remember it.

HEARING OFFICER HUGHES:

5
6

20

Okay. Let me ask

this, Mr. El-erick.

7

THE WITNESS: yeah.

B

HEARTNG

9

transmitted by fax, correct?

oFFrcER HUGHES: Thi-s was supposedly

10

MR. KIM: That's what. it

saysr

11

HEARING OFFfCER HUGHES:

Okay. Do you

1l€s.

I2

recognize the fax number on that?

13

I donrt recogrnize the fax
number, no. r don't -- to add a rittle bit to that,
there were very few times we actually used the fax in

1_4

15
1,6

L'7

1B

THE WITNESS:

our offj_ce and I may have seen it, may not. I just
don't
r just. don't remember gett.ing a fax in during
this time period.
HEARING OFFfCER HUGHES:

1,9

20

common

23
24

25

Okay. The more

route would be through e-mail?
THE WITNESS:

21"

22

you

E-mailr 1l€sr orr a more

reguJ_ar

basis.
HEARfNG OFFICER HUGHES:

electronic transmittal_

Or some other

?

THE WITNESS: yeah.
451

HEARING OFFICER HUGHES:

1

2

Okay. Mr. Dubin,

thank you.

4

Let me ask you this, Mr. Dubln, in your binder
there, with reference to this Exhibit 2, do you have

5

anything evidenci-ng the transmittal by fax?

3

MR. DUBIN:

6

1
B

v

office has records of every fax

transmittal- and f will accordingly search for that,

and

Mr. Kim can easily inform us whether 545-2119 i-s the
fax or not.
HEARING OFFICER HUGHES:

10
11

My

f don't know that

Do you have that information?

13

MR. KIM: Not off t.he top of my head.

1_4

MR. DUBIN: No, but he could find it

out in

76

five minutes or 1ess, so may f l_eave that for him? I
wil-l- check on the fax --

T1

MR. KIM: ffm not a witness in this matter.

1B

HEARING OFFICER HUGHES:

yeah. f will ask him

20

to fi-nd out what the fax number is and provide it to
everyone here, but f 'm also asking you to l_ocate the

27

transmittal- of the fax because this is an important

22

document J-n your defense, September 23, 2016. f

23

assumj-ng

t9

24
25

he

wou]d have that information.

L2

15

ODC

witness.

rm

it would have been faxed on that date.
Let me just ask another question of the
Do you reca1l having any conversation with
458

1

2

Mr. Dubin about this fax of Sept.ember 23, 20L6?
THE WfTNESS: No, I don,t recal_l_
it.

3
4

5
6

7

HEAR]NG OFFTCER HUGHES:

MR. KfM: T'm sorry?

9

HEARING OFFfCER HUGHES: Would

13
L4

15

(The fol_Iowing question was read.
back:

ft's your current recol_lection as you
testified here today that you never received a
car_r_ or
other communication from Mr. Dubin on your initiar_
l-etter?

1,6

)

THE VVTTNESS:

HEARING OFFICER HUGHES:

t9

proceed, Mr. Dubin.

20

BY MR. DUBTN:

O

z1
23
24
25

Thatts what f 'm sayingr. f

do

not recall_.

1B

27

you read that

back?

11
72

YOU dO rECA.].]-

that you -- it's your current recoJ_lection
as you
testified here today that you never received
a caLl or
other communication from Mr. Dubin on your
initiat
letter?

B

i_0

1,1

OKAY.

Okay. you

may

George, can you l_ook at the bottom of __
By t.he way, I,d ask this be admitted into

evidence
HEARING OFFTCER HUGHES:

] Wi]-]- CONditiONAllY
receive your Exhlblt 2 to Binder part r, r6-o-32d
being
459

7

2
3

a reference; however, r want Mr. Dubin and Mr. waihee
as well as Mr. Kim to note that f am looking for
confirmation of the receipt of this document by

(Respondent's Exhiblt 2 was conditionally

4
q

received into evidence.)

6

MR. DUBIN: Absol_utely.

7

HEARTNG OFFICER

B

9

10

HUGHES: Okay.

BY MR. DUB]N:

O

George, can you look at the l_ast paragraph of

this l-etter?
Could you do me a favor and read it into the

11

72

record?

13

MR. KIM: ft's

I4

HEARING OFFTCER HUGHES: f t

15

MR. DUBfN: Wel_l

1,6

HEARTNG

77
1B

I9
20
2L
22
23
24

25

oDC.

in evidence.
'S

J-N CV1dCNCC __

oFFrcER HUGHES: -- conditionally.

werre not going to have him read it i_nto the record.
MR. DUBfN: Mr. Kim was al_l_owed to have
witnesses read things into the record..
MR. KfM: Because you weren,t responding to
questi-on. Strike that. I withdraw that.

my

MR- DUBrN: That's just another example of the
unprofessiona] way things are bei-ng conducted by the

oDC. r've simply asked it be read into the record.
HEARING OFFfCER HUGHES:

f understand your
460

1,

2
3

request and the reguest is denied. The
document speaks
for it.sel_f . We have the document conditionally
admitted.

4

MR. DUBfN: Alt right.

5

HEAR]NG OFFICER HUGHES: So

6

MR. DUBTN: Wel1, I can address it
HEARING OFFfCER HUGHES:

BY MR. DUB]N:

ODo

74

retained

15

Ar

76

0

1B

Mr

you see

a

reference to who actually

Kern?

Do you see a reference at the bottom
of this
letter as to who actually retai-ned Mr. Kern,
who fir_ed
the complaint?

79

A

f see.

20

O

Do you see that?
Do you have any __ did you, whil_e you
were

27

))
23

Mr. Dubin, please

MR. DUBIN: A1I right.

13

L7

my

move along.

11

12

in

question, certaj_nly.

9

10

f

want to keep moving this thing a1ong.

7
B

let,s not

with the

-- and obviously all my questions are
limited to that. Di-d you, while you were
with the
ODC

24

have any evidence who Mr. Kern represented
in flling

25

thls

compJ_aint

oDc,

?

467

MR. KfM: Agrain, there is a motion in
l_imine

1

2

on this and it's

3

of direct'

4
q

HEARfNG OFFICER HUGHES:

B

MR. DUBfN: Coul_d T put

9

HEARING OFFTCER HUGHES: __ Dubi_n's

11

MR. DUBfN: Could f put

13

t4

I1
1B
1,9

my

my

letter?
objection on the

record?

I2

I6

Okay. Sustained.

And we have Mr.

10

15

beyond the scope

Mr' Elerick is only here to test'fy as
to
Mr' Dubin's non-response to a specific r-etter
dated
October 3rd, 20J,6.

6
7

work product and it,s

HEARfNG OFFICER HUGHES:

yesr

1zou may.

MR. DUBIN: The ODC brought a complaint
against me by Mr. Kern. r've simply asked what
evidence

they have that Mr. Kern had the authority to
fir_e a
complaint on behal_f of a client of mine. That
was my
question.
With that objection in mj-nd, does the Hearing
Officer stij_f sustain the objection?

20

HEAR]NG OFFICER HUGHES: He does.

27

BY MR. DUBfN:

22

fn this letter Septembe r 23rd,, 2016, admitted
conditionally, is there information concerning
my client
trust 1og attached to this letter?

23
24
25

O

A

f see that here.
462

O

1

And is there informatj-on regarding money

2

wires, credit. confirmation receipts from First

3

Bank?

Hawaii-an

4

A

Yes, f see that.

5

O

And you see the handwritten word. "Harkey" and

6

"from Harkeyil on those two credit confirmations?

7

MR. KfM: What page are you referring

d

HEARING OFFfCER HUGHES:

9

MR. DUBfN: First Hawaiian Bank, bank credit

10

conf irmati-on.

11

MR.

12

MR.

They're not

to?
numbered.

KIM: What date? Do you have a date?
DUBfN: Thatrs the heading. Yes, f can

13

gfve you the ful-l- information if you want

74

15

one is in amount of $20,000 dated January 1,6 -- excuse
rTr€r January 25th, 203"6 made payable to the Gary V. Dubin

16

Cl-ient Trust Account.

I7
1B

HEARING OFFfCER HUGHES:

this is a conditionally

ir.

The

first

Okay. Mr. Dubin,

admitted document. f understand

27

the significance of this document and al_l of the
contents to the claims being asserted against you by
ODC. We can move on now. f am looking for t.he

22

confirmation because if it comes in, it has

23

strong evldence,

1_9

20

it is

okay?

24

MR. DUBfN: Okay.

25

HEARING OFFICER HUGHES: So

let's move a1ong.
463

RECORD

I

lL / 22 / 1,7 TransciPt

L

DISCIPLINARY

2

of the

3

HAWAIII SUPREME COURT

BOARD

4

5

OFFICE OF DISCIPLINARY

6

COUNSEL,

Petitioner'

7

I
9

ODC No.

6-0-213

L

6-0-15r.

L6-0-L47
L6-0-326

vs.
GARY

L

V. DUBIN,
Respondent.

10
1L
T2

L3

t4
L5

t6

l7

(VolumeV)
HEARING
Taken at the Office of Disciplinary Counsel, 20L Merchant
Street, Suite L600, Honolulu, Hawaii 968L3, commencj-ng at
g:36 d.IIl.r on Novembex 22, 20L7.

18

t9
20

2t
22

BEFORE:

HEARING OFFICER ROY HUGHES' ESQ

23
24

Reported by: Mary Anne Young, CSR 369,

25

For the Office of Disciplinary Counsel:

RPR

927

Correct.

1

2
3
4

5

O Thank you.
. Did Mr. Harkey tell you when he retained
in May of 20L6 that he had attempted to get this
information from Mr. Dubin?
MR

6

DUBIN: Objection.

10

indicated -MR DUBIN: Excuse me. Objection. Itrs
leadinE question. Mr. Kim is testifying again.
HEARING OFFICER HUGHES: f'11 allow the

L1

question.

7

I
9

you

THE WITNESS: He

a

L4

indicated that he had asked
for the accounting of his retainer, and at that time f
believe Mr. Dubin had said that it wasn't ready yet. He

15

indicated after that he had had his assistants or

L,6

whoever

L2

13

THE WITNESS: He

-MR

L7

DUBIN: Excuse me. This is all material

20

hearsay. There's been no explanatj-on why Mr. Harkey is
not testifying in this proceeding. He has a surrogate
who is testifying as to hj.m, and I think that's a valid

2L

objection.

18
L9

HEARING OFFICER HUGHES:

22

Mr. Dubin,

my

23

understanding is that the complaint at issue has been

24

made

25

receive the testimony.

by Mr. Kern, not by Mr. Harkey, so I'm going to

951

HEARING OFFICER IIUGHES: Then

1
2

letrs go and

do

ir.

4

DUBIN: -- based on his testimony. WelI,
I'm trying to. Despite all the interrupLions, thatrs

5

what Irm trying to do.

6

BY MR DUBTN:

7

0
A

3

8

MR

Mr.

Kern?

Yes? Yes?
You have no actual

13

-- you have no personal
knowledge regarding what I actually did concerning
Washington state cases?
A Again, at least here i-n Nevada, we define
personal knowledge as including that gained by review of

1,4

admissibl-e business records.

9

L0
11
L2

L5
16

O

O
A

But you -So by that standard, I do have personal

L7

knowledge.

18

But you have -- you don't have personal
knowledge what Mr. Harkey asked me to do in Washington

L9

20
2L
22

23
24

25

O

state, right?
A Again, I reviewed signifj-cant interactions in
writing between you and Mr. Harkey dj-scussing that.
HEARING OFFICER HUGHES: And

so the answer,

Mr. Kern, would be yes?
THE WITNESS:

Yes, I do.
1014

1

BY MR DUBIN:

2

O

3

communicated

4

usj-ng

You know that Mr. Harkey

with

me

at that time

mostly on the telephone, he wasnrt

B

e-mailr so can you identify what communications
you're referring to?
I am referring to the written communications
A
and I would dispute looking at your billing records that
you proposed to indicate mostly written communication

9

with him.

5
6
7

O

10
11
L2
13

A11 right.

Are you aware that he instructed

to work through somebody in Washington who I
send materiaLs to after talking to -A No, he never indicated that.

me

O
A

L4

15

would

Pardon?

He never indicated anything

of that sort to

16

me.

l7

20

Okay. And what about in Nevada, do you know
anything about the communications I had with Mr. Harkey
regarding what he wanted me to do regarding Nevada?
Yes, because I worked on that case and
A

2t

reviewed the records.

18
19

22
23

O

O

And when

did you --

when

did you

become

involved in that case, approximately?'

24

A

The end of MaY 2016.

25

O

And all the work that's billed for in the
101_ 5

Before the

1

DISCIPLINARY

2

BOARD

of the

3

HAWAIII

4

SUPREME COURT

5

VS.

)
)
)
)

DUBIN,

)

6

OFFICE OF DISCIPLINARY

7

COUNSEL,

Petitioner,

8
9

10

GARY

V.

Respondent.

l_1

I2

oDC

No. L6-0-2L3
16-0-1slL6-0-L47

16-0-326

)

I

13
L4

15

t6
L7
L8

(VolumeIII)
HEARING
Taken at the Office of Discipli.nary Counsel, 201 Merchant
Street, Suite 1600, Honolulu, Hawaii 968L3, commencing at
9:09 d.rTl.r on November 20, 20L7.

L9
20

2t
22
23

BEFORE:

HEARING OFFICER ROY HUGHES, ESQ.'

24
25

Reported by: Mary Anne Young, CSR 369,

RPR

4!3

4

KIM: Again, there is a motion in limine
on this and it's work product and it I s beyond the scope
of direct. Mr. Elerick is only here to testify as to
Mr. Dubj-n's non-response to a specific 1etter dated

5

October 3rd, 2016.

1

2
3

MR.

HEARING OFFICER HUGHES:

6
7

And we have Mr.

I Put mY -HEARING OFFICER HUGHES: -- Dubinrs letter?
MR. DUBIN: Could I put my objection on the
MR. DUBIN: Could

8
9

10
1-1

Okay. Sustained.

record?

Yesr You

t2

HEARING OFFICER HUGHES:

1_3

MR. DUBIN: The ODC brought

L4

may.

a complaint

agai-nst me by Mr. Kern. Irve simply asked what evidence

L6

they have that Mr. Kern had the authority to file a
complaint on behaLf of a client of mine. That was my

L7

question.

15

L8
L9
20
2L

22
23
24
25

With that objection in mind, does the Hearing

Officer still

sustain the objection?

HEARING OFFICER HUGHES: He does.

BY MR. DUBTN:

O fn this letter September 23rd, 20L6, admitted
conditionally, j-s there informatj-on concerning my client
trust 1og attached to this letter?
I see that here.
A
462

RECORD:

Doc.

29

Lruofuaw.nelvlall

lhtltlrr
Ltw
rtllllcrc

- ryllcnagl E. narKgy -\-\-rl\r'rLrDl\rrf1L.

r \-/r\ rLtL L rLu vr vru\r...

rs6v r vr

Gary Victor Dubin <gdubin@dubinlaw.net>

Michael E. Harkey -CONFIDENTIAL: FOR THE EYES OF GARY DUBIN AND
MICHAEL HARKEY ONLY
Wendy Alison Nora <accesslegalservices@gmail.com>
To: Gary Victor Dubin <gdubin@dubinlaw.net>
Cc: Michael Harkey <mhrctfysto@g mail. com>, + 1 9 1 4689525 1 @tmomail. net

Mon, Apr 25,2016 at 12:06
PM

Dear Gary,
have attached the Power of Attorney executed by Michael Harkey today, so that I can work
with you on the retainer agreement for Mr. Harkey's representation in Harkev v. US Bank,
N.A. as Trustee for th,e CSMC Mortoaqe-B-acked Trust 2007-6, now pending in the United
States District Court for the District of Nevada in which a member of your firm, Frederick
John Arensmeyer, has applied to appear pro hac vice.

I

Michael Harkey has asked me to continue act as research assistant, legal assistant and
investigator in his case against US Bank, N.A., Trustee for the CSMS Mortgage-Backed Trust
2OO7-6, et al. in the United States District Court for the District of Nevada in Case No. 14-cv777, a capacity in which I could not continue to act on his behalf until new counsel was
retained, because I am not licensed to practice law in Nevada and, due to circumstances
involving my dispute with the Wisconsin Office of Lawyer Regulation, I will not seek pro hac
vice admission in Mr. Harkey's case. I have sought pro hac vice admission in the United
States Bankruptcy Court for the Southern District of New York during the pendency of the
OLR action, but both Mr. Harkey's previous attorney and I (as his mere legal assistant,
research assistant and investigator) were subjected to an attack on our integrity due to
previous disciplinary matters for each of us (mine is over 25 years old) by the attorneys for
Fidelity National Financial, Inc. because we exposed the fact that they had used Mr. Posin's
electronic signature without his consent and in violation of the Local Rules of the United
States District Court for the District of Nevada, which require that the filer of a document
with an electronic signature must have possession of the signature of all signatories. Fidelity
National Financial is the parent company of Lender Processing Services, Inc., now known as
Black Knight Financial, LLC, a document forgery operation. The irony of the situation was not
lost on Atlorney Posin and me. Recriminations were flying between Attorney Posin (largely
directed against me) and the lawyers who produced a false document displaying Attorney
posin's uniuthorized electronic signature. Judge Boulware would have none of it and told all
concerned (there were other acrimonous disputes) that before any more accusations could be
aired in public, the matter would have to be directed to him in confidence first, (if I am
characterizing his position correctly, which was stated in open court and was not otherwise
put into a written order.)

Mr. Harkey and I are in the process of finalizing the Harkey Operating Trust for filing with the
Minnesota Secretary of State, of which I will be the initial Trustee, and, as the name
indicates, Michael E. Harkey will be the Trustor. Among the assets of the Harkey Operating
Trust wilt be the current action in Harkey v. US Bank, N.A. as Truslee for the CSMC
Mortqaqe-Backed Trust 2007-6, now pending in the United States District Court for the
District of Nevada. The Harkey Operating Trust may be substituted as Plaintiff in the action
as soon as the Harkey Operating Trust is registered with the Minnesota Secretary of State.
As Trustee of the Harkey Operating Trust (the Trust), I will be responsible for retaining
attorneys and other professionals for services to the Trust and the income to and assets of
the Trust will be responsible for making payments for professional services. In the interim,

https://mail.sooele.comlmaiVu/A/?ui:2&ik:cf69a96212&view:ot&mss=1544{lScIaac4d...

5ll5/2017

,

IjuDrnlaw.net vlarr - ryucnagr

.D.

narK€y -\-\-rl\ruJDr\ r rr1.r-/. r'\-rr\ t LLt) D.r !l) \,,r uru\ r ...

L

46v

- vL

Mr. Harkey has appointed me as his Attorney-in-Fact, so that the retainer agreement for your
firm's services may be negotiated, approved and executed by me. Mr. Harkey needs to
direct his attention to other important business matters and it is not in his interests or the
interests of the case to spend time working on necessary modifications to your firm's
proposed retainer ag reement.
understand that Mr. Harkey has paid a total of $45,000.00 to Dubin Law Offices. It is also
my understanding that $20,000.00 was paid to your firm in December, 2015 or January,
2016 for services to be rendered in the United States Bankruptcy Court for the Western
District of Washington, which have not been provided. I understand that $25,000.00 was
paid to your firm in April, 2016 for representation of Mr. Harkey in Harkey v. US Bank, N.A.
as Trustee for the CSMC Mortqaoe-Backed Trust 2007-6 (the Nevada federal district court
case). Mr. Harkey has some questions and concerns about the allocation of funds already
paid and, as Trustee of the Harkey Operating Trust, I will work with you to resolve those
issues. Mr. Harkey is very emotionally involved with all of the properties which were taken
from him, but the Camino Island, Washington propefi is especially important to him. In
order of priority for recovery of the real estate, it is my understanding that the Camino
Island, Washington property is the most important, Unit 321L at222O Village Walk in
Henderson is the next most important and Unit 3315 is the third. He lost other properties
during the engineered "Foreclosure Crisis" as well, at a time when even a single missed
payment was used to create a default, and the availability of TARP funds created incentives
to foreclose. The scheme often worked like this (as I am sure that you know), a single
missed payment would lead to the creation of an escrow account and forced place insurance,
creating a default situation often unknown to the property owner. Often the missed payment
would be refused as "late" and the next payment would be demanded at the same time.
Once the engineered default led to 90 days in arrears, the monoline insurance policies would
be triggered into effect. Credit default swaps, CDOs, etc. were accessed by Trustee's of
REMIC Trusts.

I

I am willing act as research assistant, legal assistant and investigator, at your direction, in
the Nevada federal district court case on the same or similar terms as those under which I
acted under the supervision of Mr. Harkey's previous attorney, Attorney Mitchell Posin,
subject to Mr. Harkey's written waiver of conflict of interest as to my dual roles as Trustee of
the Operating Trust and acting at your direction. I prepared documents for Attorney Posin's
review and approval and filed the documents electronically. It appears that your firm is not
yet filing documents electronically in the case, If I am going to function in my previous
capacity as a research assistant and legal assistant, I will need to have login and password
information associated with you firm's ECF registration so that I may file approved motions,
briefs and other documents at the direction of counsel appearing for Mr. Harkey. One single
authorized attorney should be assigned to approve the documents which I will be directed to
prepare for review and filing. I will be available to answer questions from any and all counsel
approved to represent Mr. Harkey, but you will find that in this case (at least at the pace
Attorney Posin encountered initially), that a committee of lawyers is too cumbersome, let
alone too expensive, to approve routine filings. The value of having more than one lawyer
representing Mr. Harkey will be increased availability of counsel in the event of scheduling
conflicts and the financial benefit of having an attorney charging lower hourly rates than lead
counsel being utilized in more routine matters. But I am, by nature and experience, opposed
tO unnecesSary cOnferences betWeen attOrneys in any client's case.
As Trustee of the Operating Trust, I will be responsible for payments for professional
services. I will not approve duplicative services such charges being made for conferences
between lead counsel, subordinate counsel and paraprofessional staff. Seruices will be
approved at the highest hourly rate among the participants in a two, three or more person
conferences only. I strongly disapprove of the business model in which lawyers and staff
confer on a matter, each being billed at his or her respective hourly rate, e.g. $500.00/hr for
a senior partner, $300.00/hr for junior partner, $200.00/hr for an associate and $100.00/hr

https://mail.soosle.com/muVu/0/?ui:2&ik:cf69a96212&view:ot&mse:l544f75claac4d... 5/15/2017

t

IjuDullaw.net Malt - Ivllcnagl t/. narKEy -\-\JI\rrLr.El\

rrflrJ. l'\-r^ t t[t) t) I ljlJ vr \r.u\r...

r 46v J vr r

for a legal assistant=$1,100.00/hr. Few clients can afford such a grandiose billing model and
it has been my observation that such a billing model quickly exhausts any reasonable
litigation budget. I have also seen firms with such models withdraw from representing clients
before the case is completed when the client can no longer afford to pay. Respectfully, there
is money to be made in the current Harkey case in the Nevada federal district court and it
will be made upon successful completion of the case by a mixed hourly rate/contingency fee
arrangement to be negotiated. The federal and Nevada RICO counts provide for reasonable
attorneys fees and costs, so the hourly billing should be maintained for eventual court
approval of attorneys' fees and costs. I would like to see a retainer agreement that rewards
successful completion of the matter and not the number of hours expended by multiple
attorneys.
Fidelity National Financial, Inc., as the parent company of LPS and LPS subsidiary DOCX, is
responsible for over one million false documents being filed in public land records and in
courts throughout the nation. See Harkey Exhibit 30. Please be advised that Fidelity
National Financial, Inc. may be liable for damages valued in the trillions of dollars if what you
have heard characterized as the last, best hope for exposing the RICO Enterprise is indeed
exposed. It is believed that a young woman was "suicided" before she could assist the
Attorney for the State of Nevada in exposing the LPS operation in Nevada and throughout the
nation. LPS'CEO, Jeffrey S. Carbinier, resigned due to "illness" soon after the April 13, 2011
Consent Decree with the was executed (Harkey Exhibit 23). In my opinion, your firm needs
all the help that I can provide to you based on my years of research into the operations of
Fidelity National Financial and its subsidiaries to save duplicative efforts. With my assistance,
the attorneys'time involved in the Harkey case can be substantially reduced, making the
expenses of litigation far more manageable and affordable.
would take you and your firm considerable time to reconstruct what I already know, if such
knowledge could ever be reconstructed. It would be a serious waste of Mr. Harkey's
resources and the legal and investigative talent already expended for your firm to not avail
yourself of my assistance in this matter, at your direction as lead counsel (when you appear
in that capacity). Many Exhibits have not already been filed in Mr. Harkey's case are
accessible from my research in the Harkey case and others involving the operations of and
bankruptcy of New Century Mortgage Corporation and the operations of LPS. The
information and research at my disposal was developed other in cases dating back to 2003,
intensified in and after 2009. Some of the Exhibits attached to the Harkey Second (and
Third) Amended Complaints are from my previous research.

It

The Harkey Second Amended Complaint and attached Exhibits filed by and at the direction
and with the approval of Attorney Posin and the draft of the Third Amended Complaint (and
Exhibits), which I am informed that Mr. Harkey filed, pro se, were notice pleadings under
Fed. R. Civ. P. 8 and alleged causes of action based on fraud. The allegations of fact were
pleaded with sufficient detail to support fraud allegations which must be specifically pleaded
under Fed. R. Civ. P. 9 to survive Fed. R. Civ. P. 12(b)(6) motions, which evidently
succeeded as to most counts despite Mr. Harkey's pro se status. The Exhibits attached to the
Second Amended Complaint (and apparently to the Third Amended Complaint) were provided
to the Court to demonstrate the plausibility of the fraud allegations, to avoid a judicial
determination that the factual allegations were implausible because the Exhibits support the
essential factual allegations.
But there are numerous other Exhibits which can be authenticated and facts which can be
provided by Declarations upon personal knowledge for partial motions for summary judgment
and in defense of any motion for summary judgment which the surviving defendants may
seek to pursue, which are in my records, are known to identifiable witnesses and are not
Exhibits attached to the Second and Third Amended Complaints. The documents and
information in my possession is based not just on my research for Mr. Harkey but dates back
years before he consulted me.

httos://mail.eoosle.co m/maillu/0/?ut:2&ik:cf69a96212&view:ot&mss:1544f/5claac4d...

5/15/2017

Dubinlaw.net Mail - Michael E. Harkey -UUNt'lIJl,N I IAL: t Ut( I rrr,

ts, Y

l,D Lrr UAt( r ... ragc + or

I

is not in Mr. Harkey's interest or the interest of the case for me to seek pro hac vice
admission as long as the bizarre Wisconsin disciplinary case remains unresolved. For me to
seek pro hac vice admission would be a distraction from the meritorious proceedings now
pending in the federal district court. My application to appear pro hac vice would require
Judge Boulware to spend time deciding my pro hac vice application which will almost
certainly be litigated because the attorneys for Fidelity National Financial, Inc. already tried
to preempt my participation as co-counsel with Attorney Posin, even though I was only then
acting as Attorney Posin's legal assistant and preparing documents for his review. An
attorney claiming to represent Fidelity National Financial, Inc. is one of the two grievants in
the Wisconsin disciplinary case. It is that grievant who procured the fraudulent allonge to my
the mortgage note in my own foreclosure case, which was created by Lender Processing
Services, Inc. (a/k/a LPS, now known as Black Knight Financial, LLC), a subsidiary of Fidelity
National Financial, Inc. He and his co-counsel in my mortgage foreclosure case pretended to
be representing Residential Funding Company, LLC (RFC, the named Plaintiff) and it was
discovered on April 5 and 6, ?OLG when each of them testified at the "hearing" that their
firms were not retained by RFC but represented, variously, 'GMAC RESCAP" (an entity which
does not exist), "GMAC Mortgage" (GMAC Mortgage, LLC is a subsidiary of Residential
Capital, LLC alkla RESCAP) and "GMAC" (which could be GMAC Bank, now Ally Bank, or
GMAC, Inc., now Ally Financial, Inc.) In other words, the attorneys who are grievants against
me were not retained by or employed by the plaintiff in whose name the foreclosure action
was initiated and pursued.

It

My Wisconsin disciplinary status is not a factor in how I might continue to serve Mr. Harkey
in a lawful capacity in an arrangement acceptable to Mr. Harkey. I am presently authorized
by Mr. Harkey to discuss your firm's retainer agreement, which requires some modifications.
My involvement in the federal district court case will require a waiver of conflict of interest
from Mr. Harkey.

I am putting this response to your email in electronic letter format and have

signed it

electronically.

All my best,
Wendy

2 aftachments

'rt 4.25.2016.Dubin.Lefter.Confidential.pdf
lH zggx
'an 4.25 .2016.

ts

Fu

I

ly

Exec uted. Li m ited

PO

A.

pdf

2tgK

hffns://mail.goosle e.orn/mail/n/O/2ni:) &ik=a.f69aQ6)1).&view:nf&rnso:l 544f7

\a1aec4A

Sl1

5D017

ACCESS LEGAL SERWCES
Wisconsin Offices VOICE (608) 833-7377
Minnesota Offices VOICE (612) 333 4144
All Offices FAX (612) 206-3170
accesslegalservices@ gmail. com
Wendy Alison Nora*
Attorney at Law
*admitted to practice law in Minnesota and Wisconsin

310 Fourth Avenue South, Suite 5010

W'isconsin Ofice (no mail to this address)
6320 Monona Drive

Minneapolis, Minnesota 554 I 3

Monona, Wisconsin

Minnesota Ofice and mailing address

537 16

April25,2O16
Attorney Gary Dubin
DUBIN LAW OFFICES
Honolulu, Hawaii VU E-MAIL

NOT TO BE RE.DISCLOSED
CONFIDENTIAL; FOR YOUR EYES
AND MICHAEL E. HARKEY OhILY

RE: Harkey v. US Bank, N.A. as Trustee for the CSMC Mortgage-Backed Trust 2007-6;
Limited Power of Attorney; Inquiry Regarding Status of Attorney Wendy Alison Nora
PLEASE READ THIS LETTER IN ITS ENTIRETY

\-

Dear Gary:

In response to your email of April23,2016,l am providing this letter which contains the
content of my email response, for your records.
I have attached the Power of Attorney executed by Michael Harkey today, so that I can
work with you on the retainer agreement for Mr. Harkey's representation in Harkey v. US Bank,
N.A. as Trustee for the CSMC Mortgage-Backed Trust 2007-6, now pending in the United States
District Court for the District of Nevada in which a member of your firm, Frederick John
Arensmeyer, has applied to appear pro hac vice.
Michael Harkey has asked me to continue act as research assistant, legal assistant and
investigator in his case against US Bank, N.A., Trustee for the CSMS Mortgage-Backed Trust
2007-6,et al. in the United States District Court for the District of Nevada in Case No.
l4-cv-177, a capacity in which I could not continue to act on his behalf until new counsel was
retained, because I am not licensed to practice law in Nevada and, due to circumstances
involving my dispute with the Wisconsin Office of Lawyer Regulation, I will not seek pro hac
vice admission in Mr. Harkey's case. I have sought pro hac vice admission in the United States
Bankruptcy Court for the Southern District of New York during the pendency of the OLR action,
but both Mr. Harkey's previous attorney and I (as his mere legal assistant, research assistant and
investigator) were subjected to an attack on our integrity due to previous disciplinary matters for
each of us (mine is over 25 years old) by the attorneys for Fidelity National Financial, Inc.
because we exposed the fact that they had used Mr. Posin's electronic signature without his

Letter to Gary Dubin

page2
consent and in violation of the Incal Rules of the United States District Court for the Distict of
Nevada, which require that the filer of a document with an electronic signature must have
possession of the signature of all signatories. Fidelity National Financial is the parent company
of Lender Processing Services, Inc., now known as Black Knight Financial, LLC, a document
forgery operation. The irony of the situation was not lost on Attorney Posin and me.
Recriminations were flyrng between Attomey Posin (largely directed against me) and the lawyers
who produced a false document displaying Attorney Posin's unauthorized electronic signature.
Judge Boulware would have none of it and told all concemed (there were other acrimonous
disputes) that before any more accusations could be aired in public, the matter would have to be
directed to him in confidence first, (if I am characterizing his position conectly, which was stated
in open court and was not othenvise put into a written order.)

Mr. Harkey and I are in the process of finalizing the Harkey Operating Trust for filing
with the Minnesota Secretary of State, of which I will be the initial Trustee, and, as the name
indicates, Michael E. Harkey will be the Trustor. Among the assets of the Harkey Operating
Trust will be the curent action in Harkey v. US Bank, N.A. as Trustee for the CSMC
Mortgage-Backed Trust 2007-6, now pending in the United States District Court for the District
of Nevada. The Harkey Operating Trust may be substituted as Plaintiffin the action as soon as
the Harkey Operating Trust is registered with the Minnesota Secretary of State. As Trustee of the
Harkey Operating Trust (the Trust), I will be responsible for retaining attomeys and other
professionals for services to the Trust and the income to and assets of the Trust will be
responsible for making payments for professional services. In the interim, Mr. Harkey has
appointed me as his Attorney-in-Fact, so that the retainer agreement for your firm's services may
be negotiated, approved and executed by me. Mr. Harkey needs to direct his attention to other
important business matters and it is not in his interests or the interests of the case to spend time
working on necessary modifications to your firm's proposed retainer agreement.
I understand that Mr. Harkey has paid a total of $45,000.00 to Dubin Law Offices. It is
also my understanding that $20,000.00 was paid to your firrn in December, 2015 or January,
2016 for services to be rendered in the United States Bankruptcy Court for the Western Distict
of Washington, which have not been provided. I understand that $25,000.00 was paid to your
firm in April, 2016 for representation of Mr. Harkey in Harkey v. US Bank, N.A. as Trustee for
the CSMC Mortgage-Backed Trust 2007-6 (the Nevada federal district court case). Mr. Harkey
has some questions and concems about the allocation of funds alreadypaid and, as Trustee of the
Harkey Operating Trust, I will work with you to resolve those issues. Mr. Harkey is very
emotionally involved with all of the properties which were taken from him, but the Camino
Island, Washington property is especially important to him. In order of priority for recovery of
the real estate, it is my understanding that the Camino Island, Washinglon property is the most
importan! rJntt32ll at2220 Village Walk in Henderson is the next most important and Unit
3315 is the third. He lost other properties during the engineered "Foreclosure Crisis" as well, at a
time when even a single missed payment was used to create a default, and the availability of
TARP funds created incentives to foreclose. The scheme often worked like this (as I am sure

Letter to Gary Dubin
page 3

that you know), a single missed payment would lead to the creation of an escrow account and
forced place insurance, creating a default situation often unknown to the properly owner. Often
the missed payment would be refused as "late" and the next payment would be demanded at the
same time. Once the engineered default led to 90 dap in alrears, the monoline insurance policies
would be triggered into effect. Credit default swaps, CDOs, etc. were accessed byTrustees of
REMIC Trusts.

I am willing act as research assistant, legal assistant and investigator, at your direction, in
the Nevada federal district court case on the same or similar terms as those under which I acted
under the supervision of Mr. Harkey's previous attorney, Attorney Mitchell Posin, subject to Mr.
Harkey's written waiver of conflict of interest as to my dual roles as Trustee of the Operating
Trust and acting at your direction. I prepared documents for Attorney Posin's review and
approval and filed the documents electronically. It appears that your firm is not yet filing
documents electronically in the case. If I am going to function in my previous capacity as a
research assistant and legal assistant, I will need to have login and password information
associated with you frrm's ECF registration so that I may file approved motions, briefs and other
documents at the direction of counsel appearing for Mr. Harkey. One single authorized attorney
should be assigned to approve the documents which I will be directed to prepare for review and
filing. I will be available to answer questions from any and all counsel approved to represent Mr.
Harkey, but you will find that in this case (at least at the pace Attorney Posin encountered
initially), that a committee of lawyers is too cumbersome, let alone too expensive, to approve
routine filings. The value of having more than one lawyer representing Mr. Harkey will be
increased availability of counsel in the event of scheduling conflicts and the financial benefit of
having an attorney charging lower hourly rates than lead counsel being utilized in more routine
matters. But I am, by nafure and experience, opposed to unnecessary conferences between
attorneys in any client's case.

As Trustee of the Operating Trust, I will be responsible for authorizing and making
payments for professional services. I will not approve duplicative services such charges being
made for conferences between lead counsel, subordinate counsel and paraprofessional staff.
Services will be approved at the highest hourly rate among the participants in a two, three or
more person conferences only. I strongly disapprove of the business model in which lawyers and
staff confer on a matter, each being billed at his or her respective hourly rate, e.g. $500.001hr for
a senior partrer, $300.00/hr for junior partner, $200.00/h for an associate and $100.001hr for a
legal assistanF$1,100.00/hr. Few clients can afford such a grandiose billing model and it has
been my observation that such a billing model quickly exhausts any reasonable litigation budget.
I have also seen firms with such models withdraw from representing clients before the case is
completed when the client can no longer afford to pay. Respectfully, there is money to be made
in the current Harkey case in the Nevada federal district court and it will be made upon
successful completion of the case by a mixed hourly ratelcontingency fee arrangement to be
negotiated. The federal and Nevada RICO counts provide for reasonable attorneys fees and
costs, so the hourly billing should be maintained for eventual court approval of attorneys' fees

ktter to Gary Dubin
page 4

and costs. I would like to see a retainer agreement that rewards successful completion of the
matter and not the number of hours expended by multiple attomeys.

Fidelity National Financial, Inc., as the parent company of LPS and LPS subsidiary
DOCX, is responsible for over one million false documents being filed in public land records and
in courts throughout the nation. See Harkey Exhibit 30. Please be advised that Fidelity National
Financial, Inc. may be liable for damages valued in the tillions of dollars if what you have heard
characterized as the last, best hope for exposing the RICO Enterprise is indeed exposed. It is
believed that a young woman was "suicided" before she could assist the Attomey for the State of
Nevada in exposing the LPS operation in Nevada and throughout the nation. LPS' CEO, Jeffrey
S. Carbinier, resigned due to "illness" soon after the April 13,20ll Consent Decree with the was
executed (Harkey Exhibit 23). Ir^my opinion, you firm needs all the help that I can provide to
you based on my years of research into the operations of Fidelity National Financial and its
subsidiaries to save duplicative efforts. With my assistance, the attomep'time involved in the
Harkey case can be substantially reduced, making the expenses of litigation far more manageable
and affordable.

It would take you and your firm considerable time to reconstruct what I already know, if
such knowledge could ever be reconstructed. It would be a serious waste of Mr. Harkey's
resources and the legal and investigative talent already expended for your firm to not avail
yourself of my assistance in this matter, at your direction as lead counsel (when you appear in
that capacity). Many Exhibits have not already been filed in Mr. Harkey's case are accessible
from my research in the Harkey case and others involving the operations of and bankruptcy of
New Century Mortgage Corporation and the operations of LPS. The information and research at
my disposal was developed other in cases dating back to 2003, intensified in and after 2009.
Some of the Exhibits attached to the Harkey Second (and Third) Amended Complaints are from
my previous research.
The Harkey Second Amended Complaint and attached Exhibits filed by and at the
direction and with the approval of Attomey Posin and the draft of the Third Amended Complaint
(and Exhibits), which I am informed that Mr. Harkey filed, pro se, were notice pleadings under
Fed. R. Civ. P. 8 and alleged causes of action based on fraud. The allegations of fact were
pleaded with sufficient detail to support fraud allegations which must be specifically pleaded
under Fed. R. Civ. P. 9 to strvive Fed. R. Civ. P. 12(bX6) motions, which evidently succeeded as
to most counts despite Mr. Harkey's pro se status. The Exhibits attached to the Second Amended
Complaint (and apparently to the Third Amended Complaint) were provided to the Court to
demonstrate the plausibility of the fraud allegations, to avoid a judicial determination that the
factual allegations were implausible because the Exhibits support the essential factual
allegations.

But there are numerous other Exhibits which can be authenticated and facts which can be
provided by Declarations upon personal knowledge for partial motions for summaryjudgment

Letter to Gary Dubin
page 5

and in defense of any motion for summary judgment which the surviving defendants may seek to
pursue, which are in my records, are known to identifiable witnesses and are not Exhibits
attached to the Second and Third Amended Complaints. The documents and information in my
possession is based not just on my research for Mr. Harkey but dates back years before he
consulted me.
case for me to seek pro hac vice
admission as long as the bizane Wisconsin disciplinary case remains unresolved. For me to seek
pro hac vice admission would be a disftaction from the meritorious proceedings now pending in
the federal district court. My application to appear pro hac vice would require Judge Boulware to

It is not in Mr. Harkey's interest or the interest of the

will almost certainlybe litigated because
Inc.
already
tried to preempt myparticipation as
the attorneys for Fidelity National Financial,
co-counsel with Attomey Posin, even though I was only then acting as Attorney Posin's legal
assistant and preparing documents for his review. An attomey claiming to represent Fidelity
National Financial, Inc. is one of the two grievants in the Wisconsin disciplinary case. It is that
grievant who procured the fraudulent allonge to my the mortgage note in my own foreclosure
case, which was created by Lender Processing Services, Inc. (alWa LPS, now known as Black
Ikight Financial, LLC), a subsidiary of Fidelity National Financial, Inc. He and his co-counsel
in my mortgage foreclosure case pretended to be representingResidential Funding Company,
LLC (RFC, the named Plaintiff) and it was discovered on April 5 and 6, 2016 when each of them
testified at the "hearing" that their firms were not retained by RFC but represented, variously,
"GMAC RESCAP" (an entity which does not exist), "GMAC Mortgage" (GMAC Mortgage,
LLC is a subsidiary of Residential Capital, LLC alWa RESCAP) and "GMAC" (which could be
GMAC Bank, now Ally Banlq or GMAC, Inc., now Ally Financial, Inc.) In other words, the
attorneys who are grievants against me were not retained by or employed by the plaintiff in
whose name the foreclosure action was initiated and pursued.
spend time deciding my pro hac vice application which

\-

My Wisconsin disciplinary status is not a factor in how I might continue to serve Mr.
Harkey in a lawful capacity in an arrangement acceptable to Mr. Harkey. I am presently
authorized by Mr. Harkey to discuss your firm's retainer agreement, which requires some
modifications. My involvement in the federal district court case will require a waiver of conflict
of interest from Mr. Harkey.
I am putting this response to your email in electronic letter format and have signed it
electronically.

All my best,
/s/ Wendy Alison Nora
Wendy Alison Nora
cc: Michael E. Harkey

NEVADA LIMITED FOWER OF ATTORNEY FORM
L NOTICE - This legal docurnent grants pu (Hereinafter referred to as the '?rincipal') the riglt
to transfer limited fmancial powers to semeone else (Hereinafter referred to as the "Attorney-inFact"), limited financial powqrs are described as: any specific financirl act legal under law.
The Principal's ransfer of limited fmancial poweni to the Attorney-in-Fact are granted upon
authorization of this agreement, and ONLYremains in effectuntil the laterof the completion of
said act, or the date of regisration of the Harkey Operating Trust with the Secretary of State for
the State of Minnesota, unless the Principal bccomes incapacitated (incapacitation is described in
Paragraph tr). This agreement does not authorize the Attorney-in-Fact to malce medical decisions
for the Principal. Tbe Principal continues to retain every right to all their financial decision
making power and may revoke this Limited Power of Anorney Form at anytime. The Principal
may include restrictions or rcquests pertaining to the financial decision making power of the
Anorney-in-Fact. It is the intent of the Attorney-in-Faa to act in the Principal's wishes put forth,
or, to make financial decisions that fit the Principal's best interest. All partics authorizing this
agreement are at least I 8 years ofage and acting under no false pressures or outside influences.
Upon authorization of this Limited Power of Anomey Fomr, it will revoke any prwiously valid
Limited Power of Anorney Form.

II. INCAPACITATION -

The powers granted to the Attorney-in-Fact by the Principal in this
Limited Power of Attorney Form DO NO-T stay in effect upon incapacitation bythe Principal,
incapacitation is describes as: A medical physician stating verbdly or ln writing that the
Principal can no longer make decisions for them self.

m. REVOCATION

- The Principal has the rigbt to revoke this Limited Power of Anomey
Form at anytime. Anyrevocation will be effective if the Principal:

A. Authorizes a new Limited Powerof Anorney Form.
B. Authorizes a Power of Attomey Revocation Form.

IV. WITNESS & NOTARY - This document is not valid as a Limited Power of Anomey unless
it is ackrowledged before a notarypublic or is signed by at least two adult wihesses who are
present when the Principal signs or acknowledges the Principal's signature.

V. PRINCIPAL - I, Michacl E. Harkey, residing in Ias Vegas, Clark County, Ncvada with a
mailing address of 9l0l West Sahara, Suite 105, Las Vegas, Nevada 891l7 appoint the following
as myAttorney-in-Fact, whom I trust with a specific financial act or acts immediatelyupon the
authorization of this form, and I grant the power to act as if I were personallypresent to my
Attomey-in-Fact.

VI. ATTORNEY-II-FACT Wendy Alison Nora, whose business address is 310 Fourth Ave.,
S., Suite 5010, Minneapolis, Minnesota 55415, is granted the legal authorityto perfonn the
specific linancial act on mybehalf under law in thc State of Nevada set forth in Section VII.,

below.

VU. POWERAND AUTHORITY GRANTED.

Tbe specific financial

actlgranttomy

Attorney-in-Fact is:
The power and authority !o negodatc, approve and execute any and all retainer agreements with
Dubin law Offices of Honolulu, Hawaii on mybehalf.

Vtr. TERMS & CONDITIONS - Upon authorization by all parties,

the Attorney-inFact accepts tbeir designation to act in the Principal's best interests for the specific financial
decisions for which she is appointed herennder.

t the Principal, agee that any third party receiving a copy via:
phpical copy, cmail, or fa:r that I" the Principal, will indcmniff and hold harmless any and all
claims that may be put forth in reference to this Limitred Power of Attorney Form.
VIIL THRD PARTES -

IX. COMPENSATION - The Attorney-in-Fact agrees not to be compensatcd for exercising the
Power and Autbority granted herein prior to the registration of the Harkey Operating Trust with
the Secretaryof State for thc State ofMinnesota.
X. PRINCIPAL'S SIGNATURE - I, Micbael E. Ha&ey; thc Principal, sign my name to this
Power of Attorney this 24o day of April ,20.16 and, being,first duly sworn on oatb, solcmnly
affirrr and declare that I sign and execute this instument as my Power of Attomey and that I sign
it wiilingly, that I execute it as my free and voluntary act for the purposes exprcssed in thc Power
of Attorney and that I am eighteen yean; of age or older, of sound mind and under no constraint
ormdue influence.

Michael E.I{arkey
Signature of Principal
State ofNevada)
ss

Countyof Clark)
On April 25,2016, Michael E. Harkey, being first duly sworn on oath, appeared before
me, identified himself as the Principal and signed and executed this instrumenthimself, and that
to the best of my knowlcdge the Principal is eighteen years of
or
of
mind and
under no constraint or undue influence.
NOTAHY
PUBUC

STATE OF NEVADA

Pnblic. My commission expires:

2z

a

Calnty cil Ghrk
JAMES TOLSON
7

XI. ATTORNEY-IN-FACT'S SIGNATIIRE - I, Wendy Alison Nora, have rcad the foregoing
Power of Anorney and am the person identifred as the Atiorney-in-Fact for dre Principal. I hereby
acknowledge and accept my appointnent as Attorney-in-Fact and thatwhen I act as agent I shall
2

hi

cipal; I shall keep the asscts of the Principal
exercise the powers for the benefit of the
separate from my assets; I shall exercise reasonable caution and pnrdence; and I shall keep a full
and accurate record of all actions, receipts and disbursements on behalf of the Pri cipal.

A4ar
WendyAlison
Signaur e of A norn qt -in- Fact

3

LruDlnlaw.netlvlall -lvllgllagl .o. n4rKIJy -\-\-rl\r'r.r-,tLlf rr^L'

Drrlrlrt

Lrw
tOltlcrc

r vr\ rLLL L r!v

vr vru\r...

Gary Victor Dubin <gdubin@dubinlaw.net>

Michael E. Harkey CONFIDENTIAL: FOR THE EYES OF GARY DUBIN AND
MICHAEL HARKEY ONLY

<gdubin@dubinlaw.net>

Mon, Apr 25,2016 at 1:31 PM
Gary Victor Dubin
To: Wendy Alison Nora <accesslegalservices@gmail.com>
Cc: Michael Harkey <mhrctfusto@gmail.com>, +19146895251@tmomail.net, Fred Arensmeyer
<farensmeyer@dubinlaw.net>, Richard Forrester <rforrester@dubinlaw.net>
Bcc: gdubin@dubinlaw. net
Wendy;
As you should know, no attorney can accept the relationship you propose.

You are forcing my law firm to withdraw our petitions for pro hac vice appearances.
I had hoped in recently emailing you that you could work with us on the Nevada case, not that you would
control our representation and not that we would be stand-ins for you.

Your proposal is unethical and would be contrary to the rules governing pro hac vice representation in the
State of Nevada.
Gary
Gary Victor Dubin
Dubin Law Offices

Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw.net
(808) 537-2300 (office)
(B0B) 392-9191 (cellular)
(808) 523-7733 (facsimile)
Licensed in California and Hawaii
[Quoted text hidden]

<4.25.20 16.Dubin. Letter. Confidential. pdf>
<4.25.2016.FullyExecuted. Limited POA. pdf>

hftps://mail.soosle.com/mail/u/0/?ui:2&ik:cf69a96212&view:nt&mss=1

544fc,?5)74Rec.

5/1 5D017

lJuullllalw.lIgL

lvla1'lr -

_f

uwgl uI faLt\JrrruJ ul lYllvll4wr L. rrqr^vJ

DrrDln

Lrw
Olllcol

ssrvu

^yLrt

-J) Lw tv

rs6vrvrv

Gary Victor Dubin <gdubin@dubinlaw.net>

Power of Attorney of Michael E. Harkey dated April 25, 2016
Wendy Alison Nora <accesslegalservices@gmail.com>

Tue, Apr 26,2016 at 11:27
AM

To: Gary Victor Dubin <gdubin@dubinlaw.net>

Dear Gary:
By no means does my email or letter attempt to control or direct your firm's representation
of Michael Harkey or the soon to be established Harkey Operating Trust in the Nevada federal
district court case entitled Harkey v. US Bank, N.A. as Trustee for the CSMC MortqageBacked Trust ?007-6. et al.
First of all, I simply offered to be a legal assistant/research assistant, at Mr. Harkey's request
and in response to your email. I would have worked entirely at the direction of your firm, if
you wanted to have me participate in that manner.

If your concern is that I am responsible for negotiating and approving the retainer agreement
with your firm, that is indeed what Mr. Harkey intended and he has every right to have a
third party who he trusts perform that role.
I do not care whether or not I perform any further legal/research assistant work on the Nevada federal
district court case. My involvement was proposed by Mr. Harkey to save him the cost of redundant
services, duplicating efforts which have already been performed and to provide you with access to the
body of research which I have accumulated over more than a decade. Mr. Harkey believed that your firm's
services could be performed at a substantially lower cost with my assistance. I could not and would not
control and direct your representation of Mr. Harkey or the Operating Trust in the federal district court
case and had no desire to do so. I far have more than enough work to do on my own existing cases.

I am concerned, however, that Mr. Harkey, who has been a client of mine since 2012,be able obtain legal
services at the lowest possible cost. I disagree with you that "no attorney can accept the relationship" I
proposed and you wrote to Mr. Harkey stating that no lawyer in America would accept the services I offered
to your firm, at Mr. Harkey's request and in response to your email inquiry. You are saying that no lawyer
would want to have a legal assistant, research assistant and investigator who has already performed
substantial services in a matter perform subordinate and supervised research and legal assistant services
at your direction. Aftorney Posin availed himself of just such a relationship for the benefit of his
representation of Mr. Harkey and I would do so under similar circumstances, so that makes at least 2
lawyers in America who would avail themselves of such proposal. lt matters naught to me whether or not
you accept the proposal for me to act in a subordinate capacity under your supervision and I am
frankly relieved not to be required to do so.

There is nothing unethicalaboutthe proposal I made at Mr. Harkey's request and in response to your

email as to my potential availability to act in a subordinate capacity and at your direction. I
proposed an arrangement which was exclusively within your direction and control, just as I
was completely under the control and direction of Attorney Posin. Theproposal I made, at Mr
Harkey's request and in response to your email of April 23,2016, does not violate the Local
Rules of the United States District Court for the District of Nevada. You were free to accept
or reject the proffered subordinate services, which were made in response to Mr. Harkey's request.
There was no need to threaten Mr. Harkey with the withdrawal of the pro hac vice application. You had
the absolute authority to reject my proffered services as a legal/research assistant, but unless Mr.

https://mail.google.com/maiVv/0/?ui:2&ik:cf69a96212&view:nt&mss=1

54547R4a.6e165 \/1sn017

IJUDlruaW.neI Ntau -

rower ot Attomey oI rvrrunagr.8. rlalfls.sy sar€(r lrPrtt zJ, LvLo

rdYv L vL o

Harkey revokes the Power of Attorney he executed and delivered yesterday, which I accepted, you would
have had to negotiate the terms of your retainer agreement with me as Mr. Harkey's Attomey in Fact. This
is what I believe is your real concern: that as Attorney in Fact for Mr. Harkey, I informed you that I would
not approve duplicative billing for multiple attorneys to confer about issues. ln other cases, when I have
been co-counsel with other attorneys, we have limited our billing for services provided jointly and
cumulatively to the amount of the hourly rate of a single attorney for the benefit of the clients.

There is nothing unethical about ilOI billing a client for the seruices of all attorneys and staff in
multiple aftorney conferences. ln fact, it is reasonable and prudent NOTto do so.

There is nothing unethical about allowing a legal assistant to file documents, when
approved by counsel, by CM/ECF. It is done all the time and is very helpful. Many
lawyers have their paraprofessional staff perlForm electronic filing for them. I have
authorized paraprofessional staff to file documents by CM/ECF when I have not
been able to do so myself.
There is nothing unethical about an attorney licensed in other jurisdictions acting
as an Attorney in Fact to negotiate, approve and execute a retainer agreement with
your law firm. A competent adult (any mentally capable person having reached the
age of 18 years) could be authorized to do so do so under Nevada law.
There is nothing unethical about a licensed attorney creating a Trust for a client
and acting as the Trustee of that Trust, The Trustee of the Harkey Operating Trust,
which is in the process of being registered in Minnesota. The litigation for which
your firm was proposed to be retained (and in which one member of your firm
applied to appear pro hac vice) will be an asset of that Trust. It will be the
Trustee's responsibility to pursue that action, including retaining professionals,
You have published defamatory statements to Mr. Harkey and members of your
firm by your email below in violation of my right to be free from libel. You declared
the proposal for my subordinate services under your supervision to be unethical in
your email to me, copied to Mr. Harkey, Fred Arensmeyer and Richard Forester. By
email to Mr, Harkey, you labelled me unethical and unprofessional and stated that

my proposal would be a FRAUD UPON THE COURL That is defamation per se.
Please be advised that you have until the close of business at 5:OO p.m. Hawaii
Time to withdraw the defamatory remarks by email to the recipients of the
defamatory material and apologize to me and Mr. Harkey.

I think that it goes without saying that,

as Attorney in Fact for Mr. Harkey, it will be
very difficult for me to approve any contract with your law firm unless or until you
withdraw the defamatory remarks directed against me and Mr. Harkey's legitimate
interests in his contractual and financial relationship with your firm.

In the meantime, because you have twice threatened to withdraw as counsel for Mr. Harkey
within less than the past 24 hours, Mr. Harkey is revising his Power of Attorney to make it
possible for me to be his Attorney in Fact to make alternative arrangements for his
representation and the representation of the Harkey Operating Trust in the Nevada federal
district court case. Mr. Harkey would prefer to avoid the eventuality of having your firm
withdraw the pro hac vice application of Fred Arensmeyer.
From what I see of the record in the Adversary Proceeding in the Western District of
Washington, Adv. No. 15-O1355, depending on the timing of your promise to represent Mr.
Harkey in that matter (regardless of the date upon which you received the advance retainer
of $20,000.00, which you directed him to send to a mistaken bank account number), you
should be able to understand Mr. Harkey's concern about your commitment to his interests

https://mail.google.com/maiVu/0/?ui=2&ik:cf69a96212&view:nt&.msq:l 5454'7RAa6e16\ s/1\nN1

uubmlaw.net MalI - fower OI AItOmey OI lvllcnaer D. narKcy sat€(r taPLtt Lr) Lv

I4tssJWro

L\)

and your firm's present ability to respond quickly to the demands of out-of-state litigation on
short deadlines. Short deadlines are always the case in bankruptcy matters and were
ubiquitous in the Nevada federal district court case until the end of 20t4, including electronic
filing requirements. Finally, your firm's proposed retainer agreement is generic and does not
sufficiently address the attorneys' fees and costs to which Mr. Harkey would be committed in
the specific matter of the Nevada federal district court action.
Wendy Alison Nora

On Mon, Apr 25, 2016 at 6:31 PM, Gary Victor Dubin <gdubin@dubinlaw.net> wrote
Wendy:
As you should know, no attorney can accept the relationship you propose.
You are forcing my law firm to withdraw our petitions for pro hac vice appearances
I had hoped in recently emailing you that you could work with us on the Nevada case, not that you would
control our representation and not that we would be stand-ins for you.

Your proposal is unethical and would be contrary to the rules governing pro hac vice representation in
the State of Nevada.
Gary
Gary Victor Dubin
Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street

Honolulu, Hawaii96813
gdubin@dubinlaw. net
(808) 537-2300 (office)
(808) 392-91 91 (cellular)
(808) 523-7733 (facsimile)

Licensed in California and Hawaii
On Apr 25,2016, at 12:06 PM, Wendy Alison Nora <accesslegalservices@gmail.com> wrote:

Dear Gary,

I have attached the Power of Attorney executed by Michael Harkey today, so

that I can work with you on the retainer agreement for Mr. Harkey's
representation in Harkey v. US Bank. N.A. as Trustee f-o-r the CSMC MortoaoeBacked Trust 2007-6, now pending in the United States District Court for the
District of Nevada in which a member of your firm, Frederick John Arensmeyer,
has applied to appear pro hac vice.
Michael Harkey has asked me to continue act as research assistant, legal
assistant and investigator in his case against US Bank, N.A., Trustee for the
CSMS Mortgage-Backed Trust 2007-6, et al. in the United States District Court
for the District of Nevada in Case No. 14-cv-I77, a capacity in which I could not
continue to act on his behalf until new counsel was retained, because I am not
licensed to practice law in Nevada and, due to circumstances involving my

httns://mail_snosle.cor11,/rnail/t/O/?tlj:),*ik:c.f69a96)1?,&vievr,':nf,{zrnso=l545419,4e4c1

6\

</1\nn|1

uuDuuaw.net Mart - rower oI Anorney oI iulcnael r,. rlarKey qateq l\pnt z), zvLo

ragg.r (,r o

dispute with the Wisconsin Office of Lawyer Regulation, I will not seek pro hac
vice admission in Mr. Harkey's case. I have sought pro hac vice admission in
the United States Bankruptcy Court for the Southern District of New York
during the pendency of the OLR action, but both Mr. Harkey's previous attorney
and I (as his mere legal assistant, research assistant and investigator) were
subjected to an attack on our integrity due to previous disciplinary matters for
each of us (mine is over 25 years old) by the attorneys for Fidelity National
Financial, Inc. because we exposed the fact that they had used Mr. Posin's
electronic signature without his consent and in violation of the Local Rules of
the United States District Court for the District of Nevada, which require that
the filer of a document with an electronic signature must have possession of
the signature of all signatories. Fidelity National Financial is the parent
company of Lender Processing Selices, Inc,, now known as Black Knight
Financial, LLC, a document forgery operation. The irony of the situation was not
lost on Attorney Posin and me. Recriminations were flying between Attorney
Posin (largely directed against me) and the lawyers who produced a false
document displaying Attorney Posin's unauthorized electronic signature. Judge
Boulware would have none of it and told all concerned (there were other
acrimonous disputes) that before any more accusations could be aired in public,
the matter would have to be directed to him in confidence first, (if I am
characterizing his position correctly, which was stated in open court and was
not otherwise put into a written order.)
Mr. Harkey and I are in the process of finalizing the Harkey Operating Trust for
filing with the Minnesota Secretary of State, of which I will be the initial
Trustee, and, as the name indicates, Michael E. Harkey will be the Trustor.
Among the assets of the Harkey Operating Trust will be the current action in
Harkey v. US Bank, N.A. as Trustee for the CSMC Mortoaqe-Backed Irust
2007-6, now pending in the United States District Court for the District of
Nevada. The Harkey Operating Trust may be substituted as Plaintiff in the
action as soon as the Harkey Operating Trust is registered with the Minnesota
Secretary of State. As Trustee of the Harkey Operating Trust (the Trust), I will
be responsible for retaining attorneys and other professionals for services to
the Trust and the income to and assets of the Trust will be responsible for
making payments for professional services. In the interim, Mr. Harkey has
appointed me as his Attorney-in-Fact, so that the retainer agreement for your
firm's services may be negotiated, approved and executed by me. Mr. Harkey
needs to direct his attention to other important business matters and it is not in
his interests or the interests of the case to spend time working on necessary
modifications to your firm's proposed retainer agreement.

I

understand that Mr. Harkey has paid a total of $45,000.00 to Dubin Law
Offices. It is also my understanding that $20,000.00 was paid to your firm in
December, 2015 or January,2016 for services to be rendered in the United
States Bankruptcy Court for the Western District of Washington, which have
not been provided. I understand that $25,000.00 was paid to your firm in
April, 2076 for representation of Mr. Harkey in Harkev v. US Bank, N.A. as
Trustee for the CSMC Mortoaoe-Backed Trust 2007-6 (the Nevada federal
district court case). Mr. Harkey has some questions and concerns about the
allocation of funds already paid and, as Trustee of the Harkey Operating Trust,
I will work with you to resolve those issues, Mr. Harkey is very emotionally
involved with all of the properties which were taken from him, but the Camino
Island, Washington property is especially important to him. In order of priority
for recovery of the real estate, it is my understanding that the Camino Island,
Washington property is the most important, Unit 3211 at222A Village Walk in
Henderson is the next most important and Unit 3315 is the third. He lost other

httns://mail-Eoosle.corn/rnaillv/O/1rri:) &ik:e.f6QqQ() 1) Rrvic,t-nt.Rtmcn:l <A<A'l9A^A^1 A<

< t1

< t1/\1 '7

UgUUUgW.IIWI

IYrCtl - MVI

Vr nllvrrrvJ

vI Ivtrvlrsvr

!.

rraAvJ

ssrvs

tLyLtLLJ,

Lvtv

rsbvrvrv

properties during the engineered "Foreclosure Crisis" as well, at a time when
even a single missed payment was used to create a default, and the availability
of TARP funds created incentives to foreclose. The scheme often worked like
this (as I am sure that you know), a single missed payment would lead to the
creation of an escrow account and forced place insurance, creating a default
situation often unknown to the property owner. Often the missed payment
would be refused as "late" and the next payment would be demanded at the
same time. Once the engineered default led to 90 days in arrears, the monoline
insurance policies would be triggered into effect. Credit default swaps, CDOs,
etc. were accessed by Trustee's of REMIC Trusts.

I am willing act as research assistant, legal assistant and investigator, at your
direction, in the Nevada federal district court case on the same or similar terms
as those under which I acted under the supervision of Mr. Harkey's previous
attorney, Attorney Mitchell Posin, subject to Mr. Harkey's written waiver of
conflict of interest as to my dual roles as Trustee of the Operating Trust and
acting at your direction. I prepared documents for Attorney Posin's review and
approval and filed the documents electronically. It appears that your firm is
not yet filing documents electronically in the case. If I am going to function in
my previous capacity as a research assistant and legal assistant, I will need to
have login and password information associated with you firm's ECF
registration so that I may file approved motions, briefs and other documents at
the direction of counsel appearing for Mr. Harkey. One single authorized
attorney should be assigned to approve the documents which I will be directed
to prepare for review and filing. I will be available to answer questions from
any and all counsel approved to represent Mr. Harkey, but you will find that in
this case (at least at the pace Attorney Posin encountered initially), that a
committee of lawyers is too cumbersome, let alone too expensive, to approve
routine filings. The value of having more than one lawyer representing Mr.
Harkey will be increased availability of counsel in the event of scheduling
conflicts and the financial benefit of having an attorney charging lower hourly
rates than lead counsel being utilized in more routine matters. But I am, by
nature and experience, opposed to unnecessary conferences between attorneys
in any client's case.
As Trustee of the Operating Trust, I will be responsible for payments for
professional services. I will not approve duplicative services such charges
being made for conferences between lead counsel, subordinate counsel and
paraprofessional staff. Services will be approved at the highest hourly rate
among the participants in a two, three or more person conferences only. I
strongly disapprove of the business model in which lawyers and staff confer on
a matter, each being billed at his or her respective hourly rate, e.g. 9500.00/hr
for a senior partner, $300.00/hr for junior partner, $200.00/hr for an associate
and $100.00/hr for a legal assistant=$1,100.00/hr. Few clients can afford such
a grandiose billing model and it has been my observation that such a billing
model quickly exhausts any reasonable litigation budget. I have also seen
firms with such models withdraw from representing clients before the case is
completed when the client can no longer afford to pay. Respectfully, there is
money to be made in the current Harkey case in the Nevada federal district
court and it will be made upon successful completion of the case by a mixed
hourly rate/contingency fee arrangement to be negotiated. The federal and
Nevada RICO counts provide for reasonable attorneys fees and costs, so the
hourly billing should be maintained for eventual court approval of attorneys'
fees and costs. I would like to see a retainer agreement that rewards
successful completion of the matter and not the number of hours expended by

multiple attorneys.

https://mail.google.con/muVu/01?ui:2&ik:cf69a96212&view:nt&mss:15454784c6e165 5/15nil1

t-lllullllow.llvl

lYlorr

- t vwvl

vt nllvruwJ

vr rvuvrrqvr

!r

^r4rwJ

velve

. \I'LL^ -J)

-v Lv

Fidelity National Financial, Inc., as the parent company of LPS and LPS
subsidiary DOCX, is responsible for over one million false documents being filed
in public land records and in courts throughout the nation. See Harkey Exhibit
30. Please be advised that Fidelity National Financial, Inc. may be liable for
damages valued in the trillions of dollars if what you have heard characterized
as the last, best hope for exposing the RICO Enterprise is indeed exposed. It is
believed that a young woman was "suicided" before she could assist the
Attorney for the State of Nevada in exposing the LPS operation in Nevada and
throughout the nation. LPS' CEO, Jeffrey S. Carbinier, resigned due to "illness"
soon after the April 13, 2011 Consent Decree with the was executed (Harkey
Exhibit 23). In my opinion, your firm needs all the help that I can provide to
you based on my years of research into the operations of Fidelity National
Financial and its subsidiaries to save duplicative efforts. With my assistance,
the attorneys'time involved in the Harkey case can be substantially reduced,
making the expenses of litigation far more manageable and affordable.

It would take you and your firm considerable time to reconstruct what I already
know, if such knowledge could ever be reconstructed. It would be a serious
waste of Mr. Harkey's resources and the legal and investigative talent already
expended for your firm to not avail yourself of my assistance in this matter, at
your direction as lead counsel (when you appear in that capacity). Many
Exhibits have not already been filed in Mr. Harkey's case are accessible from
my research in the Harkey case and others involving the operations of and
bankruptcy of New Century Mortgage Corporation and the operations of LPS.
The information and research at my disposal was developed other in cases
dating back to 2003, intensified in and after 2009. Some of the Exhibits
attached to the Harkey Second (and Third) Amended Complaints are from my
previous research.
The Harkey Second Amended Complaint and attached Exhibits filed by and at
the direction and with the approval of Attorney Posin and the draft of the Third
Amended Complaint (and Exhibits), which I am informed that Mr. Harkey filed,
pro se, were notice pleadings under Fed. R. Civ. P. 8 and alleged causes of
action based on fraud. The allegations of fact were pleaded with sufficient
detail to support fraud allegations which must be specifically pleaded under
Fed. R. Civ. P. 9 to survive Fed. R. Civ. P. 12(b)(6) motions, which evidently
succeeded as to most counts despite Mr. Harkey's pro se status. The Exhibits
attached to the Second Amended Complaint (and apparently to the Third
Amended Complaint) were provided to the Court to demonstrate the plausibility
of the fraud allegations, to avoid a judicial determination that the factual
allegations were implausible because the Exhibits support the essential factual
allegations.
But there are numerous other Exhibits which can be authenticated and facts
which can be provided by Declarations upon personal knowledge for partial
motions for summary judgment and in defense of any motion for summary
judgment which the surviving defendants may seek to pursue, which are in my
records, are known to identifiable witnesses and are not Exhibits attached to
the Second and Third Amended Complaints. The documents and information in
my possession is based not just on my research for Mr. Harkey but dates back
years before he consulted me.

It is not in Mr. Harkey's interest or the interest of the case for me to seek pro
hac vice admission as long as the bizarre Wisconsin disciplinary case remains
unresolved. For me to seek pro hac vice admission would be a distraction from

htBs://mail.google.com/maiUu/0/?ui=2&ik:cf69a96212&view:pt&mse:1 5454784c6e165... 5/15/2017

IJUDIIIIAW.IISL lYt4lr - rOWgI Ur fAttutlrgy Ur rvllrvlral('l !. rr.ar\sJ \l6tls\r rLyLLt LJ, Lwtw

r45W

'

vr u

the meritorious proceedings now pending in the federal district court. My
application to appear pro hac vice would require Judge Boulware to spend time
deciding my pro hac vice application which will almost certainly be litigated
because the attorneys for Fidelity National Financial, Inc, already tried to
preempt my participation as co-counsel with Attorney Posin, even though I was
only then acting as Attorney Posin's legal assistant and preparing documents
for his review. An attorney claiming to represent Fidelity National Financial,
Inc. is one of the two grievants in the Wisconsin disciplinary case. It is that
grievant who procured the fraudulent allonge to my the mortgage note in my
own foreclosure case, which was created by Lender Processing Services, Inc.
(a/k/a LPS, now known as Black Knight Financial, LLC), a subsidiary of Fidelity
National Financial, Inc. He and his co-counsel in my mortgage foreclosure case
pretended to be representing Residential Funding Company, LLC (RFC, the
named Plaintiff) and it was discovered on April 5 and 6, 2016 when each of
them testified at the "hearing" that their firms were not retained by RFC but
represented, variously, "GMAC RESCAP" (an entity which does not exist),
"GMAC Mortgage" (GMAC Mortgage, LLC is a subsidiary of Residential Capital,
LLC a/k/a RESCAP) and "GMAC" (which could be GMAC Bank, now Ally Bank, or
GMAC, Inc., now Ally Financial, Inc.) In other words, the attorneys who are
grievants against me were not retained by or employed by the plaintiff in
whose name the foreclosure action was initiated and pursued.
My Wisconsin disciplinary status is not a factor in how I might continue to serve
Mr. Harkey in a lawful capacity in an arrangement acceptable to Mr. Harkey. I
am presently authorized by Mr, Harkey to discuss your firm's retainer
agreement, which requires some modifications. My involvement in the federal
district court case will require a waiver of conflict of interest from Mr. Harkey.

I am putting this response to your email in electronic letter format and have
signed it electronically.

All my best,
Wendy

<4.25.2016.Dubin. Letter, Confi dential. pdf>
<4.25.2016.FullyExecuted. Limited POA. pdf>

Attorney Wendy Alison Nora
ACCESS LEGAL SERVICES
310 Fourth Ave. S., Suite 5010
Minneapolis, Minnesota 55415
VOICE: (612) 3334144
FAX: (612) 206-3170
accesslegalservices@g mai l. com
OFFICE HOURS BY APPOINTMENT ONLY

This communication and any attachments are transmitted by an attorney and constitutes confidential and
privileged information, the essential character of which is maintained unless and until the specific
information is voluntarily filed in the public record or transmitted to a third party with the actual or

https://mail.google.com/maiVu/0/?ui:2&1k=cf69a96212&view-ot&mse:15454784c6e155...5/15/?,017

uubmlaw.net MalI - rower oI Allorney oI rvlrcnagr D. narKsy uilttru IIPLIL /-r, zv L\)

-f

4Bs o vr o

necessarily implied consent of the client solely for purposes of legal representation. WARNING: This
communication may be unlawfully collected and stored by the National Security Agency (NSA) in secret.
The parties to this email do not consent to the retrieving or storing of this communication and any related
metadata, or the printing, copying, re{ransmitting, disseminating, or othenvise using it outside the scope of
legal services provided to clients of this firm. lf you believe you have received this communication in error,
please delete it immediately.

hthrs://mail.soosle.com/mail/u/O/hti:2&ik=cf69a96).12&.view:nt&nrsoel 54\419'4o6c16\ <11<l)nl1

IJUUlItlaW.Itgt

Lvlall

- f U\/agl

L,l nLL\JIITQJ

vr rYrlvuqwr

L. rrqrwJ

Dubln
Lrw
aDfficre

sqlvu

'

\yLLL ur,

uv 'v

Gary Victor Dubin <gdubin@dubinlaw.net>

Power of Attorney of Michael E. Harkey dated April 25,2016

<gdubin@dubinlaw.net>

Tue, Apr 26,2016 at 11:34 AM
Gary Victor Dubin
To: Wendy Alison Nora <accesslegalservices@gmail'com>
Cc: Micha-el Harkey <mhrctfysto@gmail.com>, Fred Arensmeyer <farensmeyer@dubinlaw.net>, Richard
Forrester <rforrester@dubinlaw. net>
Bcc: gdubin@dubinlaw, net
WendY:

Your interference with my representation and relationship with my client is very unfortunate and forces me
to withdraw from the case.
I reject your new threats. Your attempt was to take over the case. Well you now have it.

Gary Dubin
Gary Victor Dubin
Dubin Law Offices
Suite 3100, Harbor Court

55 Merchant Street
Honolulu, Hawaii96813
Office: (808) 537-2300
Cellular: (808) 392-9191
Facsimile: (808) 523-7733
Email: gdubin@dubinlaw.net

Licensed in California and Hawaii
lQuoted text hidden]

https://mail.sooele.com/mail/u/0/?ui:2&ik=cf69a96212&view:nt&mss:1

54547efl].f9l00f... 5ll5/2017

L,ruuultaw.Ilgt lvlalt - nafll9y v. \JD.Diltul., r\.f1. as llu)rss rur ur(, \-orvl\, rvr{,IrBaBc-.crau[tr... f 4Es r r,I r

DuDln
Liw
tOfllcec

Gary Victor Dubin <gdubin@dubinlaw.net>

Harkey v. US Bank, N.A. as Trustee for the CSMC Mortgage-Backed Trust
2007-6, et al. (NVD Gase No. 14-cv-1771and Harkey v. US Bank, NA et al.
(WAWB Adv. No. 15-01355)
Gary Victor Dubin

<gdubin@dubinlaw.net>

Tue, Apr 26,2016 at 11:44 PM

To: Wendy Alison Nora <accesslegalservices@gmail.com>

lf you will read my prior recent text messages and emails you will find that I
already covered that issue and will be providing a full accounting when time
allows. I do not need professional responsibility training from you.

Everything, everything was done at Michael's instructions, despite your prior
erroneous statements to the contrary, and if you want a court battle, you can
expect me to sue you for unethical interference with contractual relations.
Since you like to threaten others, I suspect that the Wisconsin disciplinary
authorities might like to know of your unethical activities in Nevada. I need to
research that as well, which I will do at no charge to Michael, for after all I at
least owe him that before you destroy his case.
Gary Dubin
GARY VICTOR DUBIN
Dubin Law Offices
Suite 3100, Harbor Court
55 Merchant Street
Honolulu, Hawaii96813
Office: (808) 537-2300
Cellular: (808) 392-9191
Facsimile: (B0B) 523-7733
Email: gdubin@dubinlaw. net
lQuoted text hiddenl

https://mail.gooqle.com/maiUu/0/?ui:2&ik=cf69a96212&view:nt&mss:1 5457lh5Rhe?on

</1\DO17

uubmlaw.ngtMall-ftarKeyv. u)5anK,N.A.as Iruslssluf urvL,DIvl\.rvrurtBilBs-.D.1er\s... r4tss r ur r

lDrrblrr

L-w
Clfflcer

Gary Victor Dubin <gdubin@dubinlaw.net>

Harkey v. US Bank, N.A. as Trustee for the CSMC Mortgage-Backed Trust
2007-6, et al. (NVD Case No. 14-cv-1771and Harkey v. US Bank, NA et al.
(WAWB Adv. No. 15-01355)
Gary Victor Dubin <gdubin@dubinlaw.net>
To: Wendy Alison Nora <accesslegalservices@g mail. com>

Tue, Apr 26,2016 at 11'.52 PM

PS: Only to protect Michael am I informing Judge Boulware only that an
unexpected conflict arose as the reason for withdrawing our PHV petitions, but
if Judge Boulware should require an explanation, I will be ethically forced to
explain why.
I am therefore being most generous to you only because I have an obligation
to protect Michael.

It is therefore odd that you should continue to threaten me when it is you that
should be grateful that I am not complaining to the Nevada Court.
I have shown you first missile to other attorneys who unanimously agree that
your sudden instructions were highly unethical.

lf you want to exchange threats, just let me know. My generosity does have
limits.

And Michael was my client, not you. My accounting will go to Michael and not
to you. I do not recognize your power of attorney, and I do not have to, for to
do so I would be participating in unethical conduct.
Gary Dubin
GARY VICTOR DUBIN

Dubin Law Offices
Suite 3100, Harbor Court
55 Merchant Street
Honolulu, Hawaii96813
Ofiice: (808) 537-2300
Cellular: (808) 392-91 91
Facsimile: (808) 523-7733
Email: gdubin@dubinlaw. net
On Tue, Apr 26,2016 al1 1:13 PM, Wendy Alison Nora <accesslegalservices@gmail,com>

wrote

[Quoted text hidden]

httns://mail-soosle a.orn/rnail/tt/O/%i:)'Qtik:1f69eQ()1),qrvll:.v-nf,&mcrr:1

\Aq'n)1'l A<-lAf

</1 </1n1 1

rJuuuuaw.Ilgt IYIilll - \-9i159 ilrlu rJ('slsr

r<rBs

DuDln
Lrw
Oelleoe

r vr

Gary Victor Dubin <gdubin@dubinlaw.net>

Cease and Desist
Wendy Alison Nora <accesslegalservices@gma il. com>
To: Gary Victor Dubin <gdubin@dubinlaw.net>
Cc: Michael Harkey <mh rctfysto@gmail. com>, + 1 9 1 4689525 1 @tmomail.net

Tue, Apr 26,2016 at 12:25 PM

Dear Attorney Dubin:

I hereby demand that you cease and

desist your defamation of me

Wendy Alison Nora
Attorney Wendy Alison Nora
ACCESS LEGAL SERVICES
310 Fourth Ave. S., Suite 5010
Minneapolis, Minnesota 55415
VOICE: (612) 3334144
FAX: (612) 206-3170
accesslegalservices@gmail. com
OFFICE HOURS BY APPOINTMENT ONLY

This communication and any attachments are transmitted by an attorney and constitutes confidential and
privileged information, the essentialcharacter of which is maintained unless and untilthe specific
information is voluntarily filed in the public record or transmitted to a third party with the actual or
necessarily implied consent of the client solely for purposes of legal representation. WARNING: This
communication may be unlawfully collected and stored by the National Security Agency (NSA) in secret.
The parties to this email do not consent to the retrieving or storing of this communication and any related
metadata, or the printing, copying, re-transmitting, disseminating, or othenvise using it outside the scope of
legal services provided to clients of this firm. lf you believe you have received this communication in error,
please delete it immediately.

https://mail.google.comlmail/u/0/?ui:2&ik:cf69a96212&view:nt&mso:1

5454ad)e\ho7e </1\n^1'7

r

r.lEg r \rr r

LruDlnlaw.ne[ ryIall - \-ease ancl L/ESlst

DuDln

Lrw
tDllleo

Gary Victor Dubin <gdubin@dubinlaw.net>

Gease and Desist
Gary Victor Dubin <gdubin@dubinlaw.net>

Tue, Apr 26,2016 al12:40 PM

To: Wendy Alison Nora <accesslegalservices@gmail.com>
Cc: Michael Harkey <mhrctfysto@g mail. com>, + 1 91 4689525 1 @tmomail. net
Bcc: gdubin@dubinlaw.net
Wendy:

There is only truth in my emails and text messages.

You have in contrast stated a string of mistruths in your emails to me and sought to interfere with my legal
representation of Mr. Harkey undei the guise of being a trustee, fteely admittedly being unable yourself to
openly enter the case due to your ethical problem that I have no information on except to disbelieve your
adverlaries who have their own documented ethical problems whether recognized or not by the courts.
I am the one who emailed you earlier inviting you to assist in the case, but not as my client!

You are not my client, and I do not have to accept you as my client.
Mr. Harkey unfortunately will eventually find out how mistaken he was putting you in your cunent role.
His case needed respectabilitY.

Please hire other counsel for him as soon as you can.
We wish you and him the very best of luck.
But again, you will not find any competent litigator willing to take orders from you.
I know you would like your emails to me to be read ditferently.
I have shared them with the members of my law firm who all agree with me, reacting with ethical disbelief.

That opinion stays here as we do not want to add to your ongoing ethical problems, which is why we are in
the process of giacefully exiting the case without court comment.
Gary Dubin
Gary Victor Dubin
Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw. net
(808) 537-2300 (otfice)
(808) 392-91 91 (cellular)
(808) 523-7733 (facsimile)

Licensed in California and Hawaii
IQuoted text hidden]

Lx-^.u^^it

-^^-t^

nn^l^oill,,lA/1,,i=1

$tilt:o€AQqQA)1)Rttictlr:nf,&rnco:t

5|54hhSa?e9,a1

5/15D01'l

\-

In Re DisciplinaryAction Against Nora
45o N.W.zd 328 (rggo)
In re Petition for Disciplinary Action against Wendy Alison NORA, an Attorney at Law of the
State of Minnesota.
No. Co-88-zzBB.

Supreme Court of Minnesota.
January 19, 1990.
Wendy Willson I*gge, Asst. Director of the Office of Lawyers Professional Responsibility, St.
Paul, for appellant.

\-

George R. Ramier, Minneapolis, Minn., for respondent.

Heard, considered and decided by the court en banc.
PER CURI.AM.

The Director of the Office of Lawyers Professional Responsibility (Director) filed a petition
for discipline alleging respondent WendyAlison Nora violated professional responsibility
standards in three separate client matters. We rejected a stipulation by the parties providing
for public reprimand and two years unsupervised probation. We remanded for a hearing
and appointed a referee, who subsequently filed findings of facts, conclusions and
recommended discipline of a public reprimand and two years supervised probation. Nora's
initial order for a hearing transcript pursuant to Rule r+(e) of the Minnesota Rules of
Lawyers professional Responsibility was cancelled when she and the Director submitted a

post-hearing stipulation adopting the referee's recommended discipline. In this stipulation
the Director and Nora agreed the referee's findings and conclusions "are conclusive." In our
order rejecting the post-hearing stipulation, we noted the referee findings "are deemed to
have been admitted." We then ordered briefing and heard oral arguments in the matter.

http://lawjustia.com/cases/minnesota/supreme-court/19901c0-88-2283-2-0.hftnl

91412017

\,

Nora graduated from the University of Wisconsin Law School in 1975 and has been an
attorney at law admitted to practice in Wisconsin since June 9, L975. She was admitted to
the Minnesota bar on September zo, 1985, without examination based on her prior years of
practice. This disciplinary action arises out of Nora's professional misconduct in three client
matters.

I. r. State Bank of Boyd Matter.
On Octobet 2g, rg84, the Commissioner of Commerce (Commissioner) closed the State
Bank of Boyd (Bank), appointed the FDIC to act as receiver and approved the sale of the
Bank's assets and transfer of its liabilities. On behalf of her clients, owners of Lac Qui Parle

Bancorporation, the Bank's holding company, Nora petitioned a district court for an
alternative writ of mandamus requesting recovery of the Bank's property and certificate. The
petition was denied. A Minnesota Court of Appeals panel affirmed, in part because Nora's
clients lacked standing. State Bank of Boyd v. Hatch, g8+ N.W.zd 55o, 555
(Minn.App.r986). In an attempt to reopen the Bank without authorization by the
Commissioner, Nora and her clients became involved with Jonathan May, who claimed to
be the trustee of a multibillion dollar trust that could be used to provide capital to the Bank.
The referee fognd Nora inadequatelyinvestigated M"y, his claims and his references.

*329 Nora was named purported chairman of the board of the Bank's holding company and
May was named as the Bank's purported president. Without having received any legal
tender as capitalization for the Bank, Nora authorized distribution of cashier's checks signed
in blank by May lnder an alias to individuals Nora had not adequately investigated, whom
May represented were to become authorized agents of Iac Qui Parle Bancorporation. No
usage restrictions accompanied the checks, instead Nora assumed, but did not veriff, that
May had conveyed her oral instructions to the recipients. May cashed several of the checks
and left the state with an undisclosed number of others. An individual in Florida used some
of the checks to purchase personal goods, which were subsequently returned. Nora also
authorized the issuance of cashier's checks to individuals facing either the expiration of
redemption period on their farm or the sale of personal property, and others to test the
validity of cashier's checks as final payment, even if drawn on an insolvent and closed bank'

At that time, Nora was aware the Bank did not comply with the requirement that Minnesota
banks have segregated cash on deposit for the payment of cashier's checks.
The referee found Nora's public announcement of the Bank's reopening and capitalization
was "without basis in fact or law." Nora then knew a Minnesota bank must display its
certificate and that the Commissioner had possession of the Bank's certificate. Upon an
investigation of the cashier's checks by the Minnesota Deparlment of Commerce, Nora and

http ://law justia.com/cases/minnesota/supreme-courU

1

99 0 I c0 -88-2283 -2

-0.html

91412017

r

her clients stipulated to a temporary restraining order enjoining them from engaging in the
banking business. Nora now characterizes the attempted reopening as "flakey."
Because of Nora's inadequate investigation of May and improper authorization of cashier's

checks, the referee concluded Nora violated Rule r.r of the Minnesota Rules of Professional
Conduct (MRPC) (competence). Her misrepresentations regarding the Boyd Bank

reopening and capitalization were deemed to constitute a violation of MRPC B.q(c). The
referee further concluded Nora "engage[d] in conduct prejudicial to the adminisbation of
justice" in violation of MRPC B.+(d), by pursuing the reopening after the court of appeals
panel determined her clients had no standing.In mitigation, Nora had no dishonest or
selfish motive in this matter and did not personally gain from the cashier's checks. She also
fi.rlly cooperated in the Boyd Bank investigation, which the referee found "likely averted

further harm to her clients or others."
e. Gennrich Matter.
On behalf of the Gennrichs, Nora brought a third-party claim against the State Bank of

Cologne's attorneys (Attorneys) and a bank officer, alleging they obtained an ex parte
replevin order against the Gennrichs in bad faith. In an order, a district court specifically

\-

found the Cologne Bank's ex parte replevin application had not been made in bad faith. The
Attorneys requested Nora dismiss with prejudice the third-parfy claims on the basis of the
order, but she refused to do so. Upon a motion by the Attorneys, all claims against them
were dismissed with prejudice, and Nora and her law firm, Hopewell, Nora and Schmidt,
were assessed Rule rr fees of $S,328.2B.
Nora formed Hopewell, Nora and Schmidt, P.A., and transferred the Minnesota assets of
Hopewell, Nora and Schmidt to a bank account in the name of the professional association

in, as the referee found, an "attempt to insulate law firm assets and to impede collection
efforts, particularly as to the judgment of the [Cologne] BankAttorneys." The Carver County
District Court then granted an order directing the bank to release monies then held in the
professional association's account, and assessed fees of $r,oz5.oo against Nora and her
firm. Further, on three occasions a court of appeals panel assessed Nora and her firm fees
for attempts to appeal from nonappealable partial determinations regarding the Gennrich
matter. Part of the attorney fees assessments and all of the $5,378.28 Rule rr costs have
been paid.

*33o The referee concluded Nora's conduct in the Gennrich matter violated MRPC 3.t
(frivolous claim) and B.+(d) (conduct prejudicial to administration ofjustice). While Nora

http://lawjustia.com/cases/minnesota"/supreme-court/1990/c0-88-2283-2-0.html

9/412017

believed refusing to dismiss the third-parfy claim was necessary to protect her clients'
interests, her motives in shielding her firm's assets are more questionable.
3. Ruud Matter.
By mortgaging their farm to the Federal Land Bank of St. Paul (Federal Bank), the Ruuds
received $335,ooo.oo in the form of bank drafts or checks that they used to satisfy

obligations to various creditors. On behalf of the Ruuds, Nora brought suit against the
Federal Bank on various grounds based on Nora's "money theory," whereby she argued the
Federal Bank did not loan money, but merely extended credit. In granting summary
judgment in favor of the Federal Bank, a Ikndiyohi District Court noted Nora's money
argument "goes well beyond the imaginative into the depths of absurdity." The court
assessed fees of $r,ooo.oo against Nora personally because all but one count of the
Complaint was frivolous, the litigation was undertaken to buy time and to delay efforts to
recover certain farm land, and success on the merits was never anticipated. Nora paid the
Federal Bank $8oo.oo in settlement of the attorney fees assessment.
Because the referee found Nora brought the Ruud

litigation primarily

as a delay tactic and

her money theory was not asserted in good faith, he concluded she violated MRPC 3.r
(frivolous claim) and 8.+(d) (conduct prejudicial to adminishation ofjustice). Although

\-

Nora acted upon her subjective beliefs and her personally held theories as to what the law
should be, she stated at oral argument she now can distingulsh political arguments that are
improperly made from legal theories that are appropriately brought.

II.
Other mitigating factors exist. Nora has no prior disciplinary record, she has paid most of
the sanctions imposed against her, and she has made full and free disclosure in this action.

In re Weyhrich, 339
N.W.zd 274, 27g (Minn.rg8g), an attorney's remorse or lack of it is an important factor. See
In re Carey,38o N.W.zd 8o6, 8o9 (Minn.r986) (disbarment appropriate when continuing
Because one purpose of attorney discipline is to protectthe public,

pattern of misconduct constitutes immediate danger to public). At the referee hearing, Nora
maintained she would reassert her positions in the Gennrich and Ruud matters if the law
were the same. In response to a question at oral argument, however, she explained her
understanding of the iaw now is different.

\-

While an attorney is properly a zealous advocate for his or her client, see Preamble to
Minnesota Rules of Professional Conduct, the perspective of an objective and detached
judgment nevertheless must remain. This important objectivity is lost when an attorney
becomes too personally involved in client matters and oversteps the bounds of ardent

http://law.iustia.com/cases/minnesota./supreme-court/19901c0-88-2283-2-0.htnl

91412017

\_

representation, as Nora admits she did. As we said in In re Getty: "Lawyers must be
encouraged to represent their clients vigorously and we are hesitant in anlrway to interfere
with an attorney's ability to do so; yet, there is a line that should not be crossed and
respondent has crossed it." 4ot N.W.zd 668,67r (Minn.

tg9il.

III.
We concur with the referee's findings and conclusions in this disciplinary action, and after

having examined the complete record in this case' we NOW ORDER:

r. Respondent Wendy Alison Nora is hereby reprimanded and shall be indefinitely
suspended from the practice of law. She shall not be eligible to apply for reinstatement until
3o days from the filing of this opinion.
z. To be eligible to apply for reinstatement, Nora shall successfully complete the portion of
the Minnesota bar examination on the subject of professional responsibility.

*ggr g. Nora shall pay, within 6o days from the filing of this opinion, to the Director $Z5o in
costs and disbursements.

IT IS SO ORDERED.

http://lawjustia.com/cases/minnesota"/supreme-court/1990/c0-88-2283-2-0.htnl

9/412017

DISCIPLINARY PROC. AGAINST

NORA

.

173 Wis.2d 660,661 (Wis. 1993)

Supreme Court of Wisconsin.
173 Wis.2d 660 (Wis. 1993)

E

a

DISCIPLINARY PROC. AGAINST NORA

R

B

KEY PASSAGES FROM THIS CA5E (2)

"(2) Upon the filing of a certified copy of a judgment or order of another jurisdiction
imposing discipline or suspending for medical incapacity of an attorney admitted to
practice in this state, the administrator shallfile a complaint with the clerk of the
supreme court containing: . . ."

ouoted

1

time

"(5) Upon the expiration of 20 days from service of the complaint issued under sub.
(2), the referee shall file a report with the court recommending the imposition of the
identical discipline or medical suspension unless: (a)The procedure was so lacking
in notice or opportunity to be heard as to constitute a deprivation of due process;
(b)There was such an infirmity of proof establishing the misconduct or medical
incapacity that the referee could not accept as final, the conclusion on that subject;
or (c)The misconduct established justifies substantially different discipline in this
State." ouoted I time

PER CURTAM.

Attomey disciplin ary p r o c e e ding atto m

{

s lic ens e n;r,p nt

https ://casetext.com/case/disciplin ary -proc-against-nora

d

e

d.

9t4120t7

- --o-

we review tn6g6pgppSpppk€e.fdAtuSfrf6pAh?t
in Wisconsin re suspended for a period of 3o da's

-

law
ltnegs*ogtp6i'{W$, t$eg to practice
a^ diseipline.-eei-roeal to ttrat-irnPosed on her

ik

in Minnesota for professional misconduct. That misconduct consisted of making misrepresentations concerning the reopening

.oer

and capitalization of a bank, failing to adequately investigate

the person who was to provide capital to the bank, improperly authorizing the issuance of cashier
checks by the bank, bringing a frivolous claim against a bank alleging

it had obtained an ex parte

replevin order against her clients in bad fai&, transferring assets of her law partnership in Minnesota to a bank account in the name of the partnership in an attempt to insulate those assets from

collection efforts on behalf of the bank that had obtained an award of costs in the frivolous action
matter and bringing litigation primarily as a delay tactic and asserting in it a theory that was not
justified by existing law.
As discipline for that misconduct, the Minnesota Supreme Court suspended Attorney Nora's license

for a ininimum of 3o days, commencing January tg, tggo, following which she would be per-

mined to petition for reinstatement, provided she successfully completed the professional responsibility portion of the Minnesota bar examination. Artorney Nora's petition for license reinstatement was denied on July rr, r99t, in part because she disclosed that, while her license was
suspended, she advised a client about a potentid federal lawsuit and drafted a petition for the cii-

ent to file pro se in the federal district courr.
We accept the referee's recommendation that Attorney Nora's license be suspended for 30 days as

discipiine reciprocal to that imposed by Minnesota Supreme Court. Although the Minnesota suspension continued beyond the specified 3o-day period, that continued suspension was not in response to Attorney Nora's misconduct for which the suspension was initially imposed but, rather,

the result of her conduct following the imposition of that suspension. The case before us concerns only the .662professional misconduct that led to her initial license suspension.

Attorney Nora was admirted to practice law in Wisconsin in 1975 and licensed to practice law in
Minnesota in 1985. She currently practices in Madison and has not previously been the subject of
an attorney disciplinary proceeding in this state.

https ://c asetext. com/case/di sciplinary -proc-agai nst-nora

9/4/2017

Based on the

dmnnfnnfiqtpntftggnlft$Sn5Rp..cgg5\ni$.gJ%f6d:f6fl1tpf*g$*gdolph

P. Regez,

made finding

sional misconduct in Minnesota. The referee concluded that Attorney Nora's misconduct in Minnesota would constitute professional misconduct under the Wisconsin Rules of Professional Con-

duct for Attorneys and, consequently, warranted imposition of identical discipline, pursuant to
SCR zz.z5.1

(case/disciplinary-proc-against-nora#idm4o6o674g89r76o-fnr) Accordingly, the ref-

eree recommended that 'esrAttorney Nora's license to practice law in Wisconsin be suspended

for

3o days. The referee did not recommend that Attorney Nora be required to successfully complete

the professional responsibiliry portion of the Wisconsin bar examination, as she had been required to do in respect to the Minnesota bar exam, as a condition of license reinstatement.
SCR zz.z5 provides:

Reciprocal discipline. G) An attorney admitted to practice law in this state, upon being subjected to public discipline or suspended for medical incapacity in another jurisdiction, shall promptly inform the administrator of the action. Failure to furnish
1.

the notice within zo days of the effective date of the order or judgment constitutes
misconduct.

(z)

(case/disciplinary-proc-against-nora?passage=n68Jvpjh3HQFSxPtLwApAA)

Upon the filing of a certified copy of a judgment or order of another jurisdiction im-

posing discipline or suspending for medical incapacity of an attomey admined to
practice in this state, the administrator shall file a complaint with the clerk of the su-

preme court containing:

(case/disciplinary-proc-against-nora?pas-

sage=n68JVpjh3H QFSxPtLwApAA)

G)

(case/disciplinary-proc-against-nora?passage=VoCNexewbyfTBHU6vzEgQg)

Upon the expiration of zo days from service of the complaint issued under sub. (z),
rhe referee shall file a report with the court recommending the imposition of the

identical discipline or medical suspension unless: (case/disciplinary-proc-againstnora?passage=VoCNexewbyr'TBHU6vzEgQg)

(a) The procedure was so lacking in notice or oppornrnity to be heard as to consti-

tute a deprivation of due process;

(case/disciplinary-proc-against-nora?pas-

sage=VoCNexewbyvTBH U6vzB9 Qg)

http

s

:

//casetext. com/case/di sciplinary-pro c-against-nora

91412017

GEIdGnLNmRT tdR0cinfGAttySOf pOnAestablmlttgstbd 66q6!du(t^or. rfl9d&Fl in(case/disciplinary-proc-against-nora?passage =VoC

N

exewbyt'IBH U6vzE9 Qg)

(c) The misconduct established justifies substantially different discipline in this
state. (/case/disciplinary-proc-against-nora?passage=VoCNexewbyyIBHU6v2EgQg)

The referee recommended that the court require Attorney Nora to pay the full costs of this proceeding, even if they exceed the $75o costs assessed against her in the Minnesota disciplinary proceeding. In making that recommendation, the referee rejected Attorney Nora's contention that, as
costs were a parr of the discipline imposed in Minnesota, the identical amount of costs must be
assessed against her

in this proceeding in order for the discipline imposed here to be reciprocal.

Attorney Nora reiterated that contention in an objection to costs filed in this proceeding. We reject that argument for the same reason set forth by the referee: imposition of costs is not

a

pan of

discipline imposed on an attorney for professional misconduct.

In her objection to costs, Attorney Nora requested, in the alternative, that she be permitted to pay
the costs of this proceeding at the rate of $roo per month, on the basis of her unspecified financial condition. In its response, the Board asked that the court require Attorney Nora to pay the
costs within six months of the date of the order suspending her license. We accept the Board's

recopmendation; in the event Attorney Nora is unable to pay the costs within that time, she may
make a showing to this court of her inabiliry to do so.

*664

IT IS ORDERED that the license of WendyA. Nora to practice law in Wisconsin is suspended for
a

period of 3o days, effective April t' 1993.

IT IS FURTHER ORDERED that within six months of the date of this order wendy A. Nora pay to
prothe Board of Attorneys professional Responsibiliry the costs of this disciplinary proceeding,
court of
vided that if the costs are not paid within the time specified and absent a showing to this
law in
her inability to pay the costs within that time, the license of Wendy A. Nora to practice
Wisconsin shall remain suspended until further order of the court.

IT IS FURTHER 9RDERED that wendy A. Nora comply with the provisions of scR zz.z6 con-

https //casetext. com/c ase/disc iplinary-proc-against-nora
:

91412017

/

suspended.
r.com/ casetext)

MJJ

Terms (/terms)
'66q

Prdss

(/about#press) Students (/students)
(

httpg://yvrywJaceboo k.c-om/casetext)

@2017 Casetext,lnc.
Casetexi, lnc. and Casetext are not attorneys or a law firm and do not provide legal advice.

https ://casetext. com/case/di sciplinary-pro c-against-nora

9/412017

ll\tullvlw,

llt

rJvur

Ivs.r\yy^rJ

lN

RE

NORA

.

417 Fed.Appx' 573,

575 (7th Cir. 2011)

United States Court of Appeals, Seventh Circuit.
417 Fed.Appx. 573 (7th Cir. 201 1)

E

a

IN RE NORA

R

B

KEY PASSAGES FROM THIS CASE (1)

,,,,Once a party invokes the judicial system by filing a lawsuit, it must abide by the
rules of the courq a party can not decide for itself when it feels like pressing its

action and when it feels like taking a break because'[t]rial judges have a
responsibility to litigants to keep their coutl calendars as current as humanly

possible.""'

ouoted 2 times

ORDER
Wendy Nora petitioned for relief from her creditors under Chapter r3 of the bankruptcy code.

one creditor, Residential Funding Company, asked the bankruptcy court to lift the automatic stay
a morton collecting debts so that it could move for-ward with a state-court action to foreclose
gage on Nora,s condominium. The bankruptcy court

lifted the stay, and Nora appealed that deci-

passed withsion to the district cogrt. Her appeal, however, never got offthe ground; five months

out an opening brief because, she claimed, her medical condition "totally disabled" her from any
litigation. yet, despite her claim, in tJrat same period she actively litigated in both the bankruptcy
merits
courr and the district court on almost every topic except the merits of her appeal. with no

httns : //casetext. com./case/in-re-nora

9/2312016

--

rr

brief in sight, and with the excuse she proffered for her delay refuted by her own litigation activity, the district court dismissed the matter for failure to prosecute. Finding no abuse of discretion,
we

affirm.

lN

RE

NORA

'

417 Fed.Appx' 573,

575 (7th Cir' 2011)

Nora requested her first briefing extension in the district court within a day of filing the notice of
appeal. She asked for more than the allotted two-week period to file her opening brief, e4plaining

in a string of submissions that her srrmptoms of fibromyalgia, a chronic condition with no cure,
disabled her from filing a brief on the merits. She claimed, for example, that she was "totally disa-

bled," "lacking basic functionality," and

tn

urgent need of immediate disability accommodations."

A magistrate judge granted a 6z-day extension. When that deadline was two days away, Nora requested an additional45 days, explaining (in z5 single-spaced paragraphs) that a "pinched nerye"
and post-traumatic stress disorder had complicated her recovery and would prevent any merits

filing indefinitely. The magistrate judge granted the second extension, but for only r5 days.

At the same time that she told the district judge that she was totally disabled" from litigating,
Nora was actively litigating in the bankruptcy court. The bankruptry docket shows weekly filings

\-

during the relevant period, most concerning her medical condition but also several pertaining to

the merits of her bankruptcy petition, including amended schedules and income records, an
amended bankruptcy petition, and a motion to reconvert the case from Chapter rr to Chapter

13.

Moreover, the district judge learned that in addition to her personal litigation, Nora, an attorney,
was simultaneously handling a bankruptcy case on behalf of a client. She kept her client's case ac-

tive during the period in question. Coincidentally, the record of that case shows that, on behalf of

her client, Nora opposed a creditor's motion to lift the automatic stay; she filed roughly a half
dozen submissions of varying length and complexity on the issue

-

the same issue that she dis-

claimed an ability to litigate in her own appeal.
Despite her evident capacity to litigate extensively before the bankruptcy court, Nora asked the
magistrate judge to reconsider the decision to give her only r5 additional days to file her merits

brief beyond *re initial nvo-month extension, contending again that her medical incapacity necessitated another rwo months' extension. The magistrate judge denied the motion, suggesting that
anyone in the condition that she was describing needs to retain counsel. Declining to retain coun-

sel or file her merits brief, she filed another motion seeking more time with the district judge,

https ://casetext, com/case/in-re-nora

9t23/2016

who also denied the request. Once five months passed without a merits brief, and having before

it

a record showing that Nora couid litigate prodigiously in the bankruptcy court despite her
claimed incaphdiftf,l'd$&sdidfr{cE$QP&5frflsffi[Rbfitkf,Stlt

appeal for failure to prosecute.

Nora filed a post-judgment motion within z8 days of judgment, asking the district court to vacate

the dismissal in light of 'hew evidence" that her medical condition may have been more serious;
that motion too was denied.
Because her post-judgment

motion came within z8 days of judgment, her appeal to us brings up

both the post-judgment order and the under$ing dismissal.

See

York Group, Inc. v. Wwi Taihu

Tractor Co., 632 FAd 399,4or (case/york-group-v-wuxi-taihu-tractor-co#p4or)

(nh Cir. zorr).

Nora argues on appeal that the dismissal of her bankruptcy appeal for failure to prosecute was un-

constirutional and an abuse of discretion. She ticks off

a

list of constitutional and starutory rights

which she maintains were violated by the dismissal. Most of her arguments, including her argument that the district court violated the Americans with Disabilities Act, merit no discussion except insofar as we construe them as contending that the district court abused its discretion under
Federal Rule of Civil Procedure 4r(b) in dismissing for want of piosecution.

\-

A parcy's willful failure to prosecute an action can be an appropriate basis for dismissal.
BoIt v. hoy, zz7 F.3d 854, 856 (case/bolt-v-loy#p856)

Salvi

for

Senate Comm.,

zo; F.:d

See, e.g.,

(nh Cir. zooo); Fed, Election Comm'n v. Al

1or5, rorS (case/federal-election-comn-v-a1-sa1vi-for-

senate#pror8) (nh. Cir. zooo) ; Williams v. Chi Bd. of Ednc, r55 F.3d 8$, 857 (case/williams-v-chicago-bo ard-of-e ducati on#p857)

z

(nh C ir. I 99 8) .

(case/in-re-nora?pass age=I4st7o-(case/in-re-nora?passage=I'n7o-sb8CHUeZvAqiyew)

sb8CHUeTvAqiyew)

,'Once a parry invokes the judicial system by filing a lawsuit,

it

must abide by the rules of the

court; a parry can not decide for itself when it feels like pressing its action and when it feels like
taking a break because '[t]rial judges have a responsibiliry to litigants to keep their court calen-

dars as current as humanly possible."' (/case/in-re-nora?passage=Ifn7o-sb8CHUeZvAqjyew)
GCIU Emptoyu

Ret,

Fund v. Chi. Trtbune C0.,8 F.3d u95, tr98-99 (case/gciu-employer-retirement-

fd-v-chicago-tribune#pn98)

(nh Cir.ryq8) (quoting

Kaganv. CattpillarTractorCo.,TgS F.zd 6or,

6o8 (case/kagan-v-caterpillar-tractor-co#p6o8) (nh Cir. 1986)). Factors relevant to a couft's de-

https ://casetext. com/case/in-re-nora

912312016

cision to dismiss for failure to prosecute include the seriousness of the misconduct, the potential

for prejudice to the defendant, and the possible merit of the suit. Bolf, zz7 F3d at 856 (case/boltv-1oy#p856); rt8rEEd\9ftSrr.'

d14.ffifueilvilV?r&F.tAtlfiir.f&1b (case/kovilic-construction-co-

inc-v-missbrenner#p76g) (nhCir.ry97). Because a district court must have wide latitude in managlng litigarion, our review of a dismissal for failure to prosecute under Rule 4r(b) is deferential,
and we will uphold a dismissal unless

FAd

n4,76

it strikes

us as fundamentally wrong. Gabriel tt. Hamlin, 5r4

v. InfI
Qcaselgabriel-v-hamlin-4#p76) (Zth Cir. zoo8); Aura Lamp Lighting Inc.

Trading Corp.,3z5 F.3d 9o3, 9o8-o9 Qcaselaura-1amp-lighting-v-international-trading#p9o8) (7th
Cir.

zoq).

Faced

with the contradiction berween Nora's claimed incapacity to litigate her appeal and her ac-

tive litigation of both her and her client's bankruptcy case, the district court was within its discre-

tion in dismissing the banlcrrptcy appeal after nryo extended deadlines and five months

passed

without a substantive filing. We underscore that Nora did not contend, in asking for more time,
that she was overburdened by the combination of her deteriorating health, her personal bankruptcy, and the demands of her law practice; she claimed, instead, that she needed prolonged relief

from dead.lines because she was 'totally disabled" from any litigation. But Nora's submissions in
the bankruptcy and district courts belie that claim, suggesting that she was capable of briefing the

merits of her appeal within the rwo granted extensions of time.
The dismissal might have been improper had Nora gtven the district court a credible reason to believe briefing would eventually begin in due course. But, to the contrary, Nora actually gave the

district reason to believe that merits briefing would continue to be delayed indefinitely.

'sze

Nora

never estimated when her health would permit her to begin briefing. Instead, she warned that she

would proceed only if she received extensions in all of her

cases,

both personal and representa-

tive, and even then, only after an additional45 days. This was hardly reassuring. Nor did she ever
explain why her medical condition disabled her from briefing the merits but allowed her to file

numerous substantive motions in the bankruptcy court. Under these circumstances, two extensions totalingZT days of extra time sufficiently accommodated Nora's asserted health condition.

https ://c asetext. com/case/in-re-nora

9123120t6

We recosnize that the district court did not explain
Co nta ct

\-

sionn

(

fia i lto :conta ct@casetext.com

cCIdicnti

li:tgf

*n@

gpilarcf

)

Featu res (/f eat0res

fdioidg

rumigbe

)

n9

ddq fartprs

for its discretionary deci
r,co;n/casetqxt)
,
Kure
unqer ^

a oecrsron

?,ffiff4@n*#8ru'rt6'g$asil*gmn r3ssF3f,r(/cbi6{n

UZng&gg1"gl1n?lly basis in the record. See cichton v. Golden Rule rns. C0.,576 F3d392,399

?nffJEt{e,tBfl-qP-u6tdH{silflbellf{#fl1#f
dence

k*2firtfft$e zge6gyrdhhqil#rlftora

contains ample evi-

of a prolonged, unjustified delay and lacks any plausible contention that the stay

was

wrongly lifted. We are also mindfirl that a district couft should issue a formal warning before resorting to the sanction of dismissal for failure to prosecute, but such a warning is not always required, Fischq v. Cingular Wireless, a46 F3d 663, 665 (case/fischer-v-cingular-wireless-llc#p665)

(nh Cir. zoo6). Given Nora's own

assurance to the court that her professed inabiliry to file a brief

was not going to abate any time soon, a warning would have served no pulpose except to facilitate

further delay.

See

id.

Finally, Nora argues that the district court should have reconsidered the dismissal in light of new
evidence she referenced (but did not submit) in her post-judgment motion that her medical con-

dition mayhave been more serious than she originally represented. But &is argument misses the

\-

point: the court was entitled to dismiss the action because her litigation activity contradicted her
claims of incapacity, not because the court did not have adequate evidence of Nora's medical con-

dition.
AFFIRMED
*4BB

https ://casetext. com/case/in-re-nora

9/2312016

IN

STATE OF WISCONSIN

IN

THE MATTER OF DISCIP],INARY
AGAINST WENDY
ATTORNEY AT LAW.
NORA,
ALISON
PROCEEDTNGS

OFFTCE OF LAWYER REGULATION,

cAsE

coDE

SUPREME COURT

309L2

CASE NO. 2013AP653-D

Complainant;

WENDY

AIISON

NORA,

RECEIVED

Respondent.

DEC 2

e

20t3
COUBT

0r
A}dENDED COMPI,AINII

the wisconsin supreme court - . office of
Lawyer Regulation (oLR), by Assistant Litigation counsel
NOW COMES

\-

Sheryl St. Ores, and alleges as fol-l-ows:
'

1.

OLR

was established by the Wisconsin

Court and operates pursuant to
Amehded Complaint

2-

Suprerne

is filed pursuant to

Supreme

Court rul-es. This
SCR

22'17'

Respondent, Attorney Wendy Alison Nora (Nora),

is a wisconsin attorney (state Bar No' 10L7043) admitted
to practice law in 19?5 whose office address is currently
listed with the State Bar of Wj-sconsin as Access Legal
services, 2!o second street NE, Minneapolis, MN 5541322t8 - Nor.a. also provided the fgllowing via an August 7 ,
2013 email to the referee, "For mail delivery and personal

service in this matter, the following temporary residence
address should be used: Wendy A]ison Nora, 4 Bahr Circle,
Madison, Wisconsin 537L9."

3.

Nora's disciplinary history is as follows:

on f'ebruary L7 , 1993, Nora's l{isconsin l-aw
license was suspended for 30 days as reciprocal
discipllne to that imposed by the Minnesota
Supreme Court for ruisrepresentations, for
failing to adequately j-nvestigate, for bringing
frivolous claim against a bank, inappropriate
transfer of assets, and bringing litigation as a
delay tactic while asserting a theory that was
not justified by existj-ng law- Disciplinary
Proceedings Agalnst Nora, I73 Wis. 2d 660, 495

N.v{.2d 99 (1993).

Regardi

4.

\-.

On March

ng itudge Colas

3, 2009, RbsidentiaL Funding Company,

filed a forecLosure action (foreclosure action)
in Dane County Circuit Court nami-ng Nora as the defendant'
the subject property being Nora's condominium/residence-

Ltrc,

(Rr'C)

Resjdent:.a-Z Funding Company LLC

;'I,

Dane.

5.

County

Circuit Court

vs.

Wendy AJ-ison Nota

et

Case Number 2009CV001095.

The Honorable Juan B. CoLas (Judge

Colas)

presided over the foreclosure action.

6.

on February 22, 2010, Nora filed a motion for

reasonable ADA accomrnodations. The District

Court

Adrninistrator j-s responsible for an ADA accommodation
reguest.
2

7

2010, Nora submitted a written

On March

26,

Judge

Colas

request to

asking for

appointment of

a

guardian ad litem (GAl) on her behalf i-n the foreclosure

on

acti6n.

March

29, 2010,

,Judge Colas denied Nora's

reqr:est.

April !9, 2Arc, Nora filed a motion asking
.Tudge Colas to recuse himself in the state foreclosure
action. on ,.Tune 9, 2010, the motion was denied. On .Tune
8.

On

filed a motl-on for reconsideration renewing
her request that ,Judge Colas recuse hj"msetf . On July L5,
25,

20]10, Nora

TOLO,

the motion was denied.

g.
\,,,,,,,,,,,,,,,.

On November 15, 2OIO, Nora filed a federal

lawsuit (federal l_awsuit) against ,Judge colas alleging
disability discrinrination and seekj-ng compensatory and
punitive

damages

. Nota v.' CoJas, et al-, No.

(E.D. Wis. filed November L5,

L0.
disqualify

On November
,rudge

1O-CV-?09

20L0)

22, 201'0, Nora 'filed a motion to

colas. on November 24, 2010, the

motion

was denied.

10, 20L0, Nora filed a Motion for
Reconsideration to Disqualify Judge Col-as. On December
L1.

On December

73, 20L0, the motion was denied.

3

L2.

On January l!,

confirmation of the

2011", RFC moved Judge Colas

sheriff's

for

sale of the subject

property.
13.

On

Eebruary 1 , 2011, Nora sought and received

an extension in federal court to respond to ,fudge Colas'
motion to dismiss Nora's actj-on against him.

L4.

On February

sunmary judgrment order

l-5.

14,

| Nora rnoved to vacate the

201,7

in the foreclosure action.

On March 1-, 2OL3-t Judge Colas, at the

confirmation of sale hearing, denied Nora's February 14,

20tt motion to vacate the order granting srumary
\-

Judgrrnent

in the foreclosure action and i-ssued an order confirming
sale

L6.

On March

7, 20L1, Nora requested. relief

judgment and renewed her motion

from

to vacate the foreclosure

judgment j-n the foreclosure action.

On March

18,

203-1,

the motion was denied.

t1.

On March

21, 2011, Nora obtained an extension

in the federal court fof her response to Judge Colas'
rnotion to dismiss Nora's action against him.

.

18.

On March

24, 2AII,

,Judge

Colas denied Nora's

March 7, 20Ll. renewed motion to vacate the foreclosure
judgment.
4

1"9.

On March

26, 201L,

her federal action agai.nst

Nora

Judge

voluntarily

dismissed

Col-as without filing

opposition to his motion to dismiss:
COI'NT ONE

20.

By bringing

a lawsuit against the judge who was

hearing a foreclosure action in which she was the
defendant on the basis that the judge ruled agaj-nst her

petition for an acconunodation, in an attempt to force the
judge to recuse himself from the foreclosure action, and
thereafter 'dropping such lawsuit irunediately after the
judge had ruled in the foreclosure action, Nora vioLated
\-

sCR 20:3.1(a)1.
Regard.ing Fal-se Stateneat

2'J,.

On

to

Tribuna3-

August 23, 2009, Nora executed a Foreclosure

Repalment Agreement

in which Nora had changed a materlal

term of the agreement by writing in a reservation of her
claims against the lend

22. on August 25, 2OOg, Attorney David eotteiger
(Potteiger), as RFC's representative, informed Nora in
t SCn.20:3.1(a) provides:
"In representing a clien! a lawyer shall nofi (l) knowingly advance a clairn
or defense that is unwarranted uder existing law, cxcep that the lavrryer may advance such claim or
defense if it can be supported by good faith arguoent for an exte,nsion, modification or reversal of
existing law; Q) knowingly advance a factual position unless there is a basis for doing so tlat is not
frivolous; or (3) file a suit assert a posirion, conduct a defense, delay a trial or take other action on
behalf of the client when the lawyer lnows or wben it is obvious that such an action would serve merely
to harass ormaliciously i4iure another."

5

writing that the reservation of her countercl-aims found in
Nora's Foreclosure Repayment Agreement counteroffer
rej ected; no settlement
On August

23.

the forecl-osure

act

was

offer existed.

26, 2009, Nora wrote to the court in

j.on inforrning the court an

agreement

or had been reached such that the foreclosure

was imminent

action should be stayed.
On August 26, 2009, Potteiger reasserted in

24.

writing to Nora the

same

rejectj.on of the counteroffer

as

set forth in his August 25, 2009 letter, confirming no
settlement offer existed.
\-.

25.
slgned

The Foreclosure Repalment Agreement was never
RFC nor enforced as a settlement in

by

foreclosure action nor was it signed by
COUNT

26.

the

RFC.

TTYO

representing to the court in a foreclosure

By

action that a settl-ement in the form of a Foreclosure
Repayment Agreement lvas

imminent or had been reached such

that the forecJ.osure action should be stayedr.

when there

was no basi-s for such a statement, Nora wiolated
20:3.3 (a) &r2
t
a

SCII' ZO:S.l1a;(l)

SCR

.

proviiles: "A lawyer

shall not lorowingly make a frlse statement of fact or law to

tibunal or fail !o correct a false statement of material fact or law previously made to the tibunal by

thc tawyer."
6

Regar&lng Nora's November 29, 2OL0 Federal Lawsuit
Case No. L0-61-748 (W.D.WI)

.27.

GMAC

Mortgage Group, LIC and its

related

entJ-ty, RFC, hired Gray & Associates to pursue foreclosure

proceedings against a residential property owned by

Attorney

Wendy

Alison Nora. Resjdential Funding

Company

LLC vs. Wendy Alison llora, €t a.7., Dane County Case

No.

09-cv-L095.

28.

William N. Foshag (Foshag) is an attorney with

Gray & Associates, L.LP.

29.
\-

RFC

was later represented by Potteiger of the

law firm of Bass & Moglowsky, S.C.

30.

0n March 4t 2010t the court entered a judgurent

of foreclosure followed by a sheriff's sale held in garly
2OLT

31.

Nora brought appeals and other related

litigation in several forums,
32.

sorne

of which are pending.

on November 29, 20L0t Nora threatened in

writing to sue Potteiger, attorney of record in the
j"nterf erence with
f orecf osure act j-on, f or tortious
contract after Potteiger counseled his client to reject
Nora's settl-ement offer in the foreclosure action.

7

33.

When

sheriff's

Potteiger refused to. cancel a

scheduled

sale of the subject condominium in

foreclosure action, Nora
November 29, 20IO

commenced

the

a federal lawsuit

in U.S. District Court for the

Western

District of Wisconsin (District Court action) against
Mortgage Corp. and various related

his law firm,

Foshag and

on

GMAC

entities, Potteiger

and

his law firm, and numerous other

entities and individuals totaling 24 defendants related to
the foreclosure action. liTora vs. Residential
Company, LLC,

of Appeals,
\-

34.

et aJ-., No. 10-cv-748-wmc

November

(7th

Funding

circuit

Court

26, 2Ot3t unpublished).

In the District Court action. Nora alleged

violatj-ons of the Racketeer fnfluenced and Corrupt
Organizations Act (18 U.S.C. SS 1961-l-968) and the Fair

Debt Collections Practices Act (15 U.S.C. S 1,962, €t

), and she sought title to her home free. and clear of
all interest and damages against the defendants in excess
seq.

of

$10,000,000,000

35.

On September 30,20L2t U.S. Dj-strict Court

Judge Willian Conley dismissed Nora's complaint on the

8

basis that the

Rooker-Feldman3

doctrine deprived the

federal trial cciurt from reviewing a state court decision.

36. In its September 30, 2012 decision,

,Judge

Conely noted the policy behind the doctrine is that "no

matter how erroneous or unconstitutional the state court

be, onJ-y lfr" Supreme Court of the United
niown v. Bowman,
States has jurisdiction to review it.
judgrment may

668 F.3d 437, 442 {7th

37.

cir. 2OL2).'

The U.S. District Court found (a) that Nora's

federal complaj-nt was an atternpt to re-litigate

the

foreclosure case, which she had lost at the state leve]
when

\-

the judgment of forecl"osure was entered against her,

a fj-nal judgment under $lisconsin law, .ld, (b) the time to
appeal the foreclosure judgrment' had run by the time Nora

filed the.federal action on November 30,
38.

The

U.

S.

District

2O!O

Court disrnis.sed the

complaint because the Rooker-FeJ&nan doctrine barred the

court from addressing the issues decided by the state
court and, therefore, the federal court lacked subject
matter jurisdiction.
39.

In his Opinion and Order dismissing Nora's

complaint, Judge

ConJ"ey

noted:

D.C. Court of Appeals v. Feltuan, 460 U. S. 462 (1983) ;
Rooker v. FideJity Trust Co., 263 U.S. 4\3 Q.923).

t

9

Here, Nora's amended complaint focuses on the
proceeding generally,
and
foreclosure
specifically upon alleged misrepresentations
made by the defendants during the course of the
proceedings in furtherance of the alJ-eged
conspiracy...

Nora also seeks an order awarding her "title to
her home free and clear of the fraudulent claim
of the GMAC Racketeering Enterprise. "... The
Seventh Circuj-t has previously described such a
request as "tantamount to a reguest to vacate
the court's judgment of foreclosure," in

affirming the distrlct court's dismlssal of a
federal cLaim asserted by a foreclosed mortgagor
against her creditors. See Taylor v. Fed. Nat'l
Mortgage Ass'n, 374 F.3d 5?9, 533 (?th Cir.
2004) ("The district court correctly determined
that requesting the recovery of her home is
tantamount to p request to vacate the court's
judgment of foreclosure. ") .
The fact that Nora brings RICO and

FDCPA claj:os
judgrment
declaratory
action

as opposed to a
seeking an order vacating the state court's
judgment - is of no import. The Seventh Circuj-t
has repeatedly rejected plaintiffs' attempts to
recast claims to circumvent the Rooker-Feldman
doctrine. See t e.g. r Louis-Kenney-Reed: El- v.
Makowiecki, No. IL-L799, 20II ffi 5L49459, at *1
(?th Cir. Nov. Lt 2017) (rejectj-ng plaintiff 's
reference to S 1983 as an attempt to circumvent
the Rooker-Feldman doctrine); Wallis v. Fifth
Third Bank, No. 11-118i-, 201L WL 4396973r at *2
(?th Cir. Sept. 2I, 20LI) ("WaLlis cannot
circumvent the Rooker-Feldman doctrine by
recasting a reguest for the district court to
review state court rulings as a complaint about
civil rights, due process, conspiracy or RICO

violatLons. ")...

Since Nora is unquestionably attempting to
challenge the 2010 state foreclosure judgment
against her by pursuing these federal claims,
her complaint j-s barred by the Rooker-Feldman
doctrine., fn the end, this result is hardly
10

surprising. Indeed, cases in which courts
including this court and the Seventh Circuit
have dismissed actions challenging a state court
forecJosure judg,ment are legion...

Lacking subject matter jurisdiction, the coult
and indeed cannot reach other
need not

Iikely grounds for dismissal.

40.

26, 2013 the Seventh Circuit Court

On Novembex

of Appeals affirmed the District Court's dismissal.

Nora

vs, Residential. fi:nding, LLC, et aL. IdCOIINT TEREE

By bringlng a lawsuit with no meritorious

4L.
basis,
punitive
\-

seeking

damages agaj-nst

000 in

compensatory

and

Potteiger and his law firm

who

$L0,000r 000'

were representing the plaintiffs

in a real estate

foreclosure action against Nora, as well as against
Foshag, hls law flrm, and numerous other parties involved
in the foreclosure matter, Nora violated
Regardiug.Nora's March 18,

.

Filing'

2OL3 New

Case

SCR

20:3.1(a)

-

York Bankruptcy Court

No. 13-01208

(U.S. Bankr. Court S.D.N.Y.)

On May !4, 20.!2, Residential Capital,

42.
which is

owned

by

GMAC

Mortgage Group, LLC and

to

LI,C,

which

is a related entity, filed for Chapter 1"1- Bankruptcy
protection j-n the U.S. Bankruptcy Court for the Southern
RF'C

District of

New

York. fn re: Residentja-l Capitalr LLC. et
11

a7, Debtors.
10,

Case

No. 12-L2020(MG) (Bankr. S.D. N.Y. July

2012).
43.

on March 18, 20t3, Nora filed a First

Complaint and rTury

Trial

Amended

against Foshag, his two

Demand

partners and his law firm, Potteiger, and most of the

same

group of defendants as the District Court action in the
Bankruptcy Court for the Southern District of

u.s

an adversarial

York,
72A20

\,-

-

Wendy

case associated

'with Case No.

Alison Nora, Plaintiff

v

Company,

LLC. et a7., Adversary No.

(Bankr.

S. D. N- Y.

,Iu1y 10,

-

nearly identical to tbat dismissed

1,2-

Residentia-1,

Funding

20L2)

New

l-3-01-20

B

Nora's complaint is
by 'Judge Conley

in

the!

District Court action.
44.

Though the matter had been adjudicated in

Wisconsin state courts, and a federal court had dismissed

her claims in the District Court action on the basis that
it had no subject matter jurisdiction to re-visit the
issues adjudicated in the Wisconsin courts, Nora brought

a

bankruptcy court action in a new venue and jurisdiction on

identical grounds against Foshag, Potteigier, and numerous
other defendants.

45,

Nora knows the

Rooker-Feldman doctrine

prohibits parties from attempting to re-litigate
t2

state

court issues, including foreclosure judgrnents, in the

U.S.

Bankruptcy Court.

In the Chapter 13 Bankruptcy case of In re

45.
Roger

(8.D.

L. RinaLdi, U.S Bankruptcy Court
case No. L1-35689-svk (Rinal-di), Nora

P. Rinaldi
Wis.

),

and Desa

represented the debtors and brought an adversarial
complaint on their behalf against certain mortgage lenders
and their attorneys, agai-n including Foshag and his firm,
Adversary No. 12-2412.

47.

In the Rinaldi case, the defendants to the

adversarial action brought a motion to dismiss, which
\-

was

granted by the Bankruptcy Court on February 22t 2O!3, just

over three weeks before Nora fiLed the Bankruptcy Court
action against Foshag, Pottieger, and the other
defendants,

48.
and

fn her Findings of Fact and Conclusions of

Memorandum

taw

Decision on Defendant's Motion to'Dismi-ss

Complaint and Amended Complaint in the Rinaldi caser'U.S.
Bankruptcy Judge Susan V. Kel1ey noted that though the

case was dismissed on other grounds, the

Rooker-FeJ-dnan

doctrine applies in bankruptcy proceedings.

49.

Foshag and

his firm and Potteiger and his firm

represent 4 of the 24 defendants Nora named in
13

the

District Court action and 4 of the .31 defendants
named in the Bankruptcy Court action,

Nora

COUNT EOUR

By filing

51.

an adversarial complaint in the U.S.

Bankruptcy Court for .the Southern District of New York

against Attorney Williain Foshagr his two partners, his law

firm of .Gray & Associates, L.l,.P.r zls weLl as Potteiger
and his Iaw firm, and 25 other defendants, seeking in
excess of $10,000,000,000 in damages end challenging the

foreclosuxe on her property, which foreclosure had already
been adjudicated in $trisconsin Circuit Court, and which
\-

foreclosure'she had already challenged by filing a nearly

identical complaint in the U.S. District Court for the
Western District
dism:i-ssed

of Wisconsin, a complaint that

on the basis of the

Rooker-Fe-ldman

doctrine,

which also applies to bankruptcy courts, Nora violated
20:3.1 (a)

SCR

.

WEEREFORE,

Attorney

was

Wendy

the Office of Lawyer Regulation asks that
Alison Nora be found in violation of the

Suprerne

Court rules as alleged in Counts One through Four

of this

Amended

Wendy

Complaint, that the Court suspend Attorney

Alison Nora's Wisconsin law license for a period of

t4

one year, and for such other and further relief as may

just and equltable, including an award of costs.
Dated

this

23'd day

of

December, 2OL3
OFTICE OF LA

ST.

ORES

GUI,ATION

Assistant lltigation Counsel
State Bar No. L017028

L10 East Main Street, Roour 315
Madison, Ilisconsin 53703-3383
608-2 61-0595

\-.

15

be

-!n

llle

lHnifBb fiIutex 6,sur|

st Ayylals

Ifiar tIle $nvwlll 6.irruil
No. 13-2676
IN nr:
Weruov A. None,

Appeal from the United States District Court for the
Western District of Wisconsin.
Barbara B. Crabb,ludge.

No. 3:13-cv-00021-bbc

\-

-

Suow Causr Hnaruruc Ocropen 28,20'J,4

- Decrpeo

FeunuARv 11,,20'J,5

Before BeupR, PosNER, and TIruoeR, Circuit Judges.
TINoen, Circuit Judge. On August13,20'J.4, we ordered attorney Wendy Nora to show cause why she should not be
sanctioned for pursuing a frivoious appeaf see Fed. R. App.

P. 38, and why she should not be disciplined for conduct
trnbecoming a member of the bar, see id. a6@). PNC Bank,
N.A. a. Spencu, 763 F.3d 650, 655 (7th Cir. 201.4). For the reasons that follow, we now impose a sanction of $2,500 but
suspend the sanction until sudr time, if ever, that Nora submits additional frivolous or needlessly antagonistic filings.

No.1.3-2676

2

I.

Background

As discussed in our earlier opinion, this case arose from a
Wisconsin foreclosure action in which Nora, retained by
Sheila Spencer, raised numerous objections focused on alleging that PNC Bank was fraudulently attempting to foredose.
Nearly four years after the suit had been filed, Nora then
removed the case to federal court on the basis that she had
just discovered through internet researdr that Freddie Mac
was the "real partSl in interest." The district court remanded
the case to state court and awarded fees and costs to PNC,
conduding that Nora failed to explain how federal jurisdiction could exist when Freddie Mac was not a party to the
case. Nora moved for reconsideration, and the court denied
the motion as "frivolous," noting that Nora "ignored the voluminous law stating that district courts lack jurisdiction to
reconsider remand orders, made no good faith argument for
.h*grng existing law and offered no meritorious arguments
for reconsidering the decision to award fees." The court
added that Nora had attempted "repeated procedural feints
to delay the foreclosure that was properly before the state
court."

Nora then appealed on behalf of both Spencer and herself, and we concluded that the appeal was sanctionably
frivolous. We explained that Nora had "never presented any
colorable basis for federal jurisdiction over this years-old
state-court foredosure case," leading us to "suspect that the
removal was part of a strategy designed to gum up the progress of the case." Spencer, 763 F.3d at 655. We also observed
that we lacked jurisdiction over Nora's appeal on her own
behalf because liability for the award of fees and costs rested

No.13-2676

3

solely with Spencer; although Nora asserted that Judge
Crabb had "engaged in a campaign of libel against [her],"
this alleged criticism did not permit Nora to appeal. Id. at
653-54. Nora suggested at oral argument that she would
withdraw her name as co'appellant but never did so. Id. at
654,

\,

Further, we noted that Nora's conduct appeared to be
part of a pattern of troubling litigation tactics. We observed
that Nora had been suspended indefinitely from practicing
law in Minnesota (though later reinstated) for conduct similar to her actions in this case: making frivolous arguments,
with no prospect of success, in an effort to delay foredosure
of her dients' farm land. See ln re NorA,450 N.W.2d 328, 330
(Minn. 1990). Additionally, we observed that Nora's responses to her opponents and the courts during this litigation were "unnecessarily accusatory and antagonistic," noting that Nora had accused "the state court judge and court
reporter of fraudulently manipulating transcripts, the district judge of pursuing 'a campaign of Iibel against [her],'
and opposing counsel of engaging in'actionable civil fraud
and racketeering [that] may constitute state and federal
criminal misconduct."' Spencer,763F.3d at 655 (alterations in
original). We gave Nora 30 days to show cause why she
should not be sanctioned.

Two days after we issued our opinion, Nora filed a L4page "initial response" alleging that the opinion did not
provide her with reasonable notice of the charges against
her. She requested an evidentiary hearing and appointment
of "an attorney to represent the proponent of the Order to
Show Cause and a referee or special master to preside at the
hearing." We denied Nora's request for appointment of a

4

No.13-2676

special master and a full evidentiary hearing but agreed to
hold a hearing on the show-cause order as allowed under
Rule 46(c). We wamed Nora that we would not accept addifional filings beyond "one proper response to the showcause order" and directed her to address the following four
issues in her response: (1) whether the removal of this case,
motion to reconsider, and appeal of the fee order were frivolous; (2) whether her appeal on her own behalf was frivolous; (3) whether the removal and appeal were litigated for
the improper purposes of delay or increasing litigation costs;
and ( ) whether her attacks on her opponents and the district judge were appropriate advocary.

\-

Nora did not limit herself to one proper response. On
September 2, 20'J.4, she submitted a petition for rehearing en
banc on behalf of herself and Spencer, rehashing her frivolous appellate arguments. On September 19, she filed both a
"partial response to order to show cause (all rights reserved)" and a separate motion to stay further proceedings
pending a petition for writ of certiorari. On October 3, after
the court denied her request for a stay of proceedings, she
filed a citation of additional authority under Circuit Rule
28(e) to bring to our attention a Sixth Circuit decision that
purportedly supports her arguments on the merits. Finally,
on October L7, eleven days before the show cause hearing,
Nora moved to postpone the hearing because she had become "progressively mildly cognitively impaired as the result of a whiplash injury" from a car accident on September
13. We denied the request to postpone the hearing but
granted Nora, or an attorney on her behalf, leave to argue by
speakerphone. On October 2& Nora appeared in person for a
2O-minute hearing.

No.1.3-2676

II.

\-

5

Discussion

In responding to our earlier opinion, Nora has dug in her
heels and continues to press the same arguments that were
thoroughly rejected in the district court and our earlier opinion. Nora spends much of her response quoting portions of
our earlier opinion and arguing that she could prove them
wrong if given an evidentiary hearing. She made the same
argument at her hearing. But Nora fails to specify what evidence she would present to underrnine our opinion; she
merely declares-without citation to the record-that a dozen different statements in our opinion were "false." These
contentions do nothing to justify the removal, motion to reconsider, and appeal in this case. She also argues that she
properly appealed on her own behalf because "the effect of
the district court decision was to require her to indemnify
Ms. Spencer." But as we explained in our earlier opinion, the
award was against Spencer, not Nor4 and Nora has not
shown that she agreed to indemnify Spencer.
Nora also argues that, by depriving her of an evidentiary
hearing, we violated her constitutional right to due process,
citing In re Ruffalo, 390 U.S. 544 (1958). That argument is
frivolous. Ruffalo holds that an attorney must receive fair notice of adverse charges and an opportunity to respond before
being disciplined. ld. at 550; see Lightspeed Media Corp. a.
Smith, 761, F.3d 699, 704 (7th Cir. 2014). These requirements
were satisfied here through our opinion and subsequent order describing our concerns, and our allowance of time to
respond and a hearing.
Sanctions are warranted under Rule 38 when a litigant or
attorney presents appellate arguments with no reasonable
expectation of success for the purposes of delay, harassment,

6

\-

No.13-2676

or sheer obstinacy. See Wachoaia Sec., LLC a. Loop Corp.,726
F.3d 899, 909-1,0 (7th Cir. 2013); Hafiz a. Friedman, g'J,g F.2d
469,475 (7th Cir. 1,990); Mays a. Chi. Sun-Times,865F.2d134,
138-39 (7th Cir. 1989). Nora's responses provide us with no
persuasive reason to doubt that her arguments in this appeal
were motivated by improper purposes. We note that this is
far from the only case-from the last two years alonewhere Nora has raised frivolous and unsupported allegations of fraudulent mortgage documents. See ln re Residmtial
Capital, LLC, No. 12-72020 (MG), 2013 WL 5227582, at 2
(Bankr. S.D.N.Y. Nov. 27, 2013) (conduding that "[a]lmost
everything asserted in the [Response Nora filed] is frivolous" as "most of the Response contains unsupported allegations of fraud and various constitutional violations"); Rinaldi
o. HSBC Bank USA, N.r4,., Nos. 13-CV-336-TPS, 13-CV-643IPS,2013WL 5876233, at*9--'J.0 (E.D. Wis. Oct. 31, 2013) (rejecting munerous daims against a mortgage as lacking "any
arguable basis" and noting that Nora's briefs were "almost
unintelligible"); ln re Schmid,494 B.R. 737,752 @ankr. W.D.
Wis. 2013) (rejecting fraud allegations as based on Nora's
opinions drawn "without the benefit of a factual or legal basis"); see also Van Stelton a. Van Stelton, 994 F. Srpp. 2d 986,
994 (N.D. Iowa 20'1.4) (refusing to dismiss abuse-of-process
daim alleging that plaintiffs represented by Nora brought
lawsuit for improper purposes).
Nora also fails to alleviate our concern about her engagi.g in "conduct unbecoming a member of the courfs bar"
under Rule 46(c). She contends that her comments during
this litigation have amounted to nothing more than unsanctionable rudeness, citing In re Snyder,472 U.S. 634 (1985). In
Snyder, the Supreme Court concluded that a single illmannered letter did not rise to the level of "conduct inimical

No.1,3-2676

7

to the administration of justice" that is sanctionable under

\-

Rule 46(c) . Id. at 64547; see In re Lightfoot, 2lT F.gd 914, 91..617 (7th Cir. 2000) (discussing this standard and collecting
cases applyi.g it). But Nora's conduct is more egregious
than that tn Synder. As noted in our earlier opiniory Nora has
repeatedly acted with needless antagonism toward opposing
counsel and judicial officers. In her responses to our order to
show cause, she has refused to back down from her accusations of libel against Judge Crabb and "actionable civil fraud
and racketeering" against opposing counsel. She denies accusing the state court judge of altering transcripts, but the
record belies her denial: she not only made the accusations
but moved for substitution of the judge on that basis. She
also now derides "tJris panel and many of the judges in this
circuif' as being biased "against homeowners' rights to be
heard and defend their homes." This bandying about of serious accusations without basis in law or fact is unacceptable
and warrants sanctions. See In re Hendix, 986 F.Zd lg1, 20'J-.
(7th Cir. 7993) (explaining that attorney's fiting of submissions not grounded in law or fact is sanctionable); Mays,865
F.2d at 140 (sanctioning attomey for falsely imputing positions on opponents and the court).

Nora suggested at her hearing that her problems represent a personal dispute with Judge Crabb, pointing out that
the judge decided to unseal Nora's medical records in an
appeal Nora filed in her own bankruptry case. But Nora has
failed to persuade us that the judge's actions amounted to
anything more than adverse rulings against her. Cl Litelcy v.
United States, 510 U.S. 540, 555 (7994) ("[J]udicial rulings
alone almost never constitute a valid basis for a bias or partiality motion."). Moreover, we affumed Judge Crabb's dismissal of that case for failure to prosecute, agreeing that

8

No.13-2676

Nora had unjustifiably prolonged the proceedings by claiming to be "totally disabled" even though she continued to
actively litigate. See In re Nora, 417 F. App'x S7g, 575-76 (7th
Ctu. 2011). When we questioned Nora about the lack of basis
for her libel accusations at the hearing in this case, she proposed that she could substantiate her accusations if allowed
to discuss them with us in chambers. There is no reason to
believe that allowing Nora to disparage Judge Crabb in private would convince us that sanctions are inappropriate.

\-

Furthermore, a review of Nora,s other recent litigation
makes clear that she has a pattem of engaging in this type of
antagonistic behavior. The chief bankruptcy judge of the
Westem District of Wisconsin criticized Nora this past
suruner for repeatedly disregarding the judge,s instructions
about the court's jurisdictional and constitutional rimits. In re
Bechard, Bankr. No. 1411862-'!.9, 201,4 WL 967'1,419, at *6
@ankr. W.D. Wis. luly 21., 201,4). Nora then challenged that
decision through a petition for a writ of mandamus, arguing
that the judge had iszued the decision for the sole purpose of
defaming her. Nora a. Furay, No. L4-cv-527-jdp, 201,4 WL
4209608 (W.D. Wis. Aug. 25,20J.4). The district court found
that the judge's "stem, but restrained, criticism,, of Nora had
been "well within the bounds of propriety and civility,,,
though "Nora's petition [wasJ not." Id. at *3 n.Z. Additionally, Nora was recently sancfioned $1,000 by another district
judge in this circuit for ignoring the judge's ,,extremely clear
waming" against fili^g frivolous submissions. Rlnaldi, Nos.
13-CV-336-IPS, 13-CV-643-IPS, ECF Doc. 48, at 3 (E.D. Wis.
Apr. 9,2014). Earlier in that case, the judge observed that, as
in this case, Nora had "at anery turn filed briefs that ha[dJ
done little to darify the matters under consideration while
further confusing matters," noting that Nora's filings lacked

No.]3-2676

9

coherent focus, cited controlling legal authority sparingry rt
at all, rehashed rejected arguments, and contained "irrelevant and argumentative language that has no place in a legal
brief." Rinaldi, Nos. 13-CV-335-IPS, L3-CV-643-IP9 ECF Doc.
37, at 2 (E.D. Wis. Dec. 13, 2013). We affirmed that sanction
on appeal. Rinaldi v. HSBC USA, N.A, Nos. 13-3865, L4-1887
(7th Cir. Feb. LL, 201"5). There is also a pending disciplinary
case against Nora in Wisconsin. See Offce of Lawyer Regulation a. N ora, No. 2013AP000653-D (Wis. filed Mar. 20, 201,3).
Because the $1,000 sanction imposed rn Rinaldi does not

appear to have deterred Nora from continuing to submit
frivolous and needlessly antagonistic filings, we now impose
an increased sanction of $2500. We suspend this sanction,
however, until the time, if ever, that Nora submits further
inappropriate filings. We also direct the derk of this court
to forward a copy of this order and our earlier opinion to the
Office of Lawyer Regulation of the Wisconsin Supreme
Court.

